<html>
<title> - ROUNDTABLE DISCUSSION: HURRICANE KATRINA</title>
<body><pre>[Senate Hearing 109-266]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-266
 
                ROUNDTABLE DISCUSSION: HURRICANE KATRINA

=======================================================================

                                HEARING

                                 OF THE

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING REBUILDING LIVES AND COMMUNITIES AFTER HURRICANE KATRINA

                               __________

                           SEPTEMBER 8, 2005

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




                    U.S. GOVERNMENT PRINTING OFFICE
23-451                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
WILLIAM H. FRIST, Tennessee          CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS, Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      THURSDAY, SEPTEMBER 8, 2005

                                                                   Page

Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     3
Casserly, Michael, executive director, Council of the Great City 
  Schools, Washington, DC........................................     8
Merrell, Leonard, Ed.D., superintendent, Katy Independent School 
  District, Katy, Texas..........................................    10
Roussel, Diane, Ed.D., superintendent, Jefferson Parish School 
  District, Louisiana............................................    13
    Prepared statement...........................................    16
Savoie, E. Joseph, Ed.D., commissioner, Higher Education, Baton 
  Rouge, Louisiana...............................................    18
Johnson, Eddie, Ph.D., deputy state superintendent, Education, 
  Alabama........................................................    21
Smith, Kathleen, president, Education Finance Council, 
  Washington, DC.................................................    22
Shriver, Mark, vice-president and managing director, U.S. 
  Programs, Save the Children, Washington, DC....................    23
    Prepared statement...........................................    25
Leaning, Jennifer, professor, Practice of International Health, 
  Harvard School of Public Health, Boston, Massachusetts.........    27
Cox, Lisa, assistant director, Federal Affairs, National 
  Association of Community Health Centers, Washington, DC........    31
Anthony, Paul, M.D., chief medical officer, Pharmaceutical 
  Research and Manufacturers Association.........................    33
Weigand, Kenneth, vice-president, Human Resources, Walgreen's....    34
Ware, Charlie, chairman, Wyoming Workforce Development Council, 
  Casper, Wyoming................................................    36
Emsellem, Maurice, public policy director, National Employment 
  Law Project, New York, NY......................................    38
White, Marilyn, Major, National Consultant on Adult Ministries, 
  Salvation Army.................................................    40
Lane, Jan, vice-president, Public Policy and Strategic 
  Partnerships, American Red Cross...............................    41
Kirsch, Tom, M.D., Johns Hopkins, member, American Red Cross 
  Disaster Services and Health Care Team.........................    43

                          Additional Material

Statements, articles, publications, letters, etc.:
    Dole, Hon. Elizabeth, a U.S. Senator from the State of North 
      Carolina, prepared statement...............................    46


                ROUNDTABLE DISCUSSION: HURRICANE KATRINA

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2005

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
Room 106, Dirksen Senate Office Building, Hon. Mike Enzi, 
chairman of the committee, presiding.
    Present: Senators Enzi, Alexander, Burr, Hatch, Sessions, 
Kennedy, Dodd, Murray, and Clinton.

                   Opening Statement of Chairman Enzi

    The Chairman. I call to order this Roundtable on Hurricane 
Katrina. This will be a little different than some of the 
roundtables we have had because this will truly be a listening 
session. We are not going to be debating an issue. What we are 
trying to do is gather as much information of what can be done, 
how we can best achieve it in the most efficient way, and we 
want to do it in the shortest possible time.
    Everybody will have a chance to make some comments about, 
from their vantage point, what could make this tragedy better, 
and we do have an epic tragedy. It is unlike anything that 
generations have seen, and that is witnessed by some of the 
150-, 180-year-old homes that have stood up through storms of 
the past and have now been demolished. The region is just 
devastated. Of course, in this instance, the media has provided 
us with a window through which we have all been able to witness 
the impact of the terrible storm and what it has done with 
countless lives in that region.
    Yet as with every disaster inflicted in the United States, 
we will relieve the hurting. We will repair the damage. And we 
will restore hope in those communities. And when I say ``we,'' 
I am not talking about the Federal Government. I am talking 
about the people of this country. This is the most giving 
country in the world. It has been witnessed any time there has 
been a problem anywhere in the world, and we are even more 
giving to our neighbors.
    Recently, there was a tornado in Wright, WY, and I got to 
watch that come into action. A few hours after the storm 
happened, people were lining up, ready to help clean up the 
mess. They were fortunate they didn't have all the flood waters 
to work with and it was a much smaller incident than this one. 
But for every person involved in a disaster anywhere, it is a 
100 percent problem and it is our problem to help them in any 
way that we can, whether it is encouraging volunteers, changing 
laws, relaxing laws, or finding money.
    Now, while the rescue efforts are still in motion, many of 
us believe the time is not right to examine the roots of the 
tragedy and find out who is to blame for any of the shortfalls. 
It is not time to play the blame game. What we are trying to do 
here, and I hope across Government right now, is find ways to 
work together to put our feet to work and our prayers to work 
and start the process of addressing the short- and long-term 
needs of the people who are devastated by the storm.
    Every relief effort must begin by identifying those who are 
most in need and directing the resources they need to them. The 
displacement of those affected by the storm has made that very 
difficult. We have never had this kind of a movement of people 
in order to take care of the problem.
    Again, we need to let everybody know, and there is a great 
effort going on right now, that if you need assistance to help 
recover from the storm's impact, you must register with the 
Federal Emergency Management Administration. That is the one 
clearinghouse for knowing who has been a victim and then those 
people can get one-on-one help to take care of it, and that is 
done by calling FEMA at 1-800-621-FEMA. I can't say that 
enough. Communicate that person-to-person, because there are a 
lot of people out there that are not able to get the messages 
that we are delivering. People can also register online at 
www.fema.gov.
    Now, once a person is registered, they will find help 
through the system, and it is being developed so that the needs 
will be addressed. Again, how do we get that message out to 
people who at the present time don't have electricity or water 
or food or, in many cases, even radios? If people didn't get a 
chance to write that down, don't worry. We are going to be 
giving that information out continually. It is available on the 
committee Web site, as well. The committee's Web site is 
help.senate.gov.
    Senator Kennedy and I called for today's roundtable because 
we were faced with an unprecedented challenge, and that is how 
to care for a million people who have been displaced throughout 
the country. Much of what lies before us is common sense. Get 
rid of the water. Remove the debris. Restore the power. Those 
tasks will be challenging enough. Yet beyond the obvious needs 
are even more challenging needs that must be met. The children 
need to go to school. Families need reliable access to health 
care. Moms and dads need training to help them find jobs to 
support their families.
    The whole process is a challenge. It is a challenge we will 
have to answer without any of the traditional means of support 
or infrastructure for these programs. Remember, much of the 
area has been devastated. It is not collecting a penny of tax 
revenue. Stores are closed, so businesses aren't collecting 
sales taxes, and workers are without jobs, so they aren't 
receiving paychecks that would normally help pay for the 
services that have to be provided.
    As a former mayor, I watched the devastation caused by 
severe weather, and I mentioned Wright, WY, that was hit by the 
tornado. Plans to rebuild Wright are, of necessity, going to 
have to include the support and cooperation of the local, 
State, and Federal level, much the same as this tragedy will, 
and I have gotten to watch that as kind of a mini-lab on what 
sorts of things are available, what the restrictions are, and 
how people can get help.
    It will also call on us to develop innovative and creative 
strategies that will cut through the red tape for this kind of 
a huge disaster and provide the assistance that is needed 
quickly and efficiently. That is why we have called on some of 
our Nation's most talented individuals. We have them assembled 
here today. We are looking forward to receiving your 
suggestions as to what we should be doing next as we work to 
produce a plan of action that will see us through the after-
effects of the storm and provide us with a strategy that we can 
use to respond to future events.
    The Nation is currently focused on New Orleans, as it 
should be, but we have to keep in mind that there are great 
needs in Mississippi and Alabama and other places in the Gulf, 
and we should not ignore the needs of communities to which 
displaced families have been moved. That is a new problem for 
us.
    Our plan of action must be based on a team approach that 
will include local, State, and national officials as well as 
the private sector and community and faith-based organizations. 
Since our local officials have the best sense of what is needed 
and how it can best be used to ensure maximum effect, they will 
have an important seat at the table. Working with State 
officials, we will coordinate our efforts with theirs to ensure 
that we have the ability to provide the support that is needed 
for the programs that will be established on the Federal, 
State, and local levels.
    The size and scope of this problem is such that we must 
bring every resource we have to bear on the problem. That 
especially includes the American people. Already, there are 
countless Americans providing support for relief efforts, 
volunteering at centers that are working with those displaced 
by the hurricane, opening up their homes to those who have 
nowhere else to go who they don't know at all. It is the kind 
of character test that America has always passed with flying 
colors. The need is so great, and we cannot ignore our most 
important assets, and that is the hearts and minds of the 
American people. They are and will continue to be an important 
part of the recovery effort.
    This roundtable will help direct the steps we will take in 
the days, weeks, and months to come to ensure that our 
commitment to those in need is met. There is no more urgent 
task facing us. We have seen the unprecedented suffering that 
has resulted from Hurricane Katrina. Now, we are going to do 
our part as a Government of the people to inspire and sustain 
the very best of human nature to renew and rebuild hurting 
families and communities.
    I want to thank Senator Kennedy for his tremendous 
bipartisan support and effort on this and the ideas that he has 
been able to generate. He has a tremendous memory for things 
that have happened before and knows the way around Government. 
He has been just a tremendous help through this situation. 
Senator Kennedy?

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Thank you very much, Chairman Enzi. All of 
us on our committee that deal with human resources, the most 
basic of human resources, the education and the health of our 
seniors, jobs, income, this is our committee and people are 
hurting in our country. I thank you for the way you have given 
such a priority to the needs of the people and the leadership 
that you have provided and to thank all of our witnesses that 
are here today and others that have been here on our previous 
meetings with Senator Enzi and myself, other members of the 
committee, in helping to make sure that we are going to have 
the kind of response that is worthy to the challenge.
    Some of the images are so searing, they are burned in our 
memories forever, and none of us will ever forget the pictures 
we have seen from the Gulf Coast in recent days. We have seen 
the images of despair among those who are abandoned in a Nation 
of great wealth, of hope reborn in the faces of families 
reunited after surviving a calamity of Biblical proportions. We 
have seen great heroism, too, not only in the spectacular 
images of rescues by helicopters, but in the quiet courage of 
neighbors who helped neighbors survive the howling winds and 
rising waters.
    We have seen darker images, too, images we thought we would 
never see in America--the elderly, the disabled, and the sick 
left to die, families split apart, American citizens trapped 
without food, sanitation, or adequate water in makeshift 
shelters. In short, we have witnessed a natural disaster turned 
into a national catastrophe by a botched and inadequate 
response, despite the bravery and sacrifice of relief workers, 
rescue personnel, and hurricane survivors themselves.
    Most of all, these indelible images remind us that we are 
all part of the American family. When members of that family 
are in need, in want, and in fear, we all have a duty to make 
our family whole once more. All of us, I am sure, have been 
heartened by the thousands of volunteers who have honored their 
commitments to the American family by giving their time and 
their skills to healing the injured, repairing schools, 
counseling the grieving, and aiding survivors in finding new 
hope.
    In my own State of Massachusetts, health professionals, 
educators, labor leaders, business, countless individual 
citizens have answered the call. Eighteen major hospitals are 
sending voluntary teams or supplies to the affected area. More 
than 30 colleges and universities in Massachusetts will enroll 
students impacted by Hurricane Katrina, offering housing and 
tuition assistance.
    Congress has a major responsibility to help the survivors 
of this terrible ordeal rebuild their communities and their 
lives. Today's hearing is an important part of meeting that 
responsibility. The distinguished individuals seated around 
this table today and the organizations they represent have 
rolled up their sleeves to help those most in need along the 
Gulf Coast. They have the vision to see what must be done and 
the experience to know how to get it done.
    As we speak, thousands of Americans displaced from their 
homes are at risk of epidemics, but only three working 
hospitals remain in Southeast Louisiana. Thousands more face 
the silent battles of coping with bereavement and catastrophe. 
We must restore shattered hospitals, assure access to health 
care, including mental health care, and build communities so 
that hurricane survivors can live with dignity and hope in 
homes of their own.
    A-hundred-and-thirty-five thousand students in Louisiana 
alone have been displaced from their schools. Hundreds of 
schools in Mississippi have been damaged or destroyed. 
Students' lives have been disrupted, their semester 
interrupted. Fortunately, superintendents and principals across 
the country have reached out to students displaced by this 
disaster to welcome them into their classrooms. It is our turn 
in Congress to reach out and provide the resources needed for 
schools to take these students in while also helping to rebuild 
educational institutions devastated by Katrina.
    We cannot afford to neglect the impact of this disaster on 
our Nation's youngest children. Many of the thousands of 
children and families in the Gulf region most seriously 
impacted by this storm were already among the most neglected 
and vulnerable in our Nation, devastated by the impact of 
poverty. It is time for Congress to act to help those young 
children and their families cope with the effects of trauma and 
build a stronger foundation for their future.
    Up to 1 million Americans will be left jobless in this 
tragic storm. The unemployment rate in the Gulf region is 
expected to reach 25 percent or higher. Experts estimate that 
many of the affected workers will be unemployed for 9 months or 
more. These are staggering figures and they have national 
implications. Standard and Poors says that the likelihood of 
another recession has doubled. It is now more than 25 percent.
    These families have lost absolutely everything and they 
need a source of income while they try to get back to their 
feet and begin looking for new employment. This process will 
undoubtedly take time, and many of these people have more basic 
needs, such as finding shelter or finding lost members of their 
families. They must be met before they can focus on finding 
work.
    In addition, while communities across the country have 
generously opened their doors and their hearts to Katrina 
victims, the local economy in these areas does not necessarily 
have the capacity to accommodate the influx of workers that 
have arrived. Families' needs are immediate and significant. 
Employers and State Governments in hurricane-ravaged States 
cannot bear the burden of compensating huge numbers of workers 
that are now jobless through their unemployment compensation 
system. We need a comprehensive Federal response that makes 
disaster unemployment assistance available to every worker left 
jobless by the tragedy, and this Federal assistance must 
provide a meaningful benefit that will meet the basic needs of 
unemployed workers and their families as they begin their long 
road to recovery.
    We must also take steps to see that we are better prepared 
for future calamities, whether from floods, earthquakes, or 
terrorist attacks. In the days and weeks to come, we will have 
much to learn that will be helpful to this task. But an 
essential part of building for the future is a clear-eyed 
assessment of the mistakes made in response to Hurricane 
Katrina. If we fail to recognize and admit mistakes, they are 
sure to be repeated.
    But our task for today is to learn from our distinguished 
panelists how best to protect the health of those affected by 
the hurricane and see that they can rebuild their lives. What 
should be our measure of success? Some would think it would be 
enough to return the survivors to the lives they knew before 
the flooding, but we should aim higher. For many of the 
survivors, the life they knew before the storm was one of ill 
health, inadequate education, and opportunity denied. The 
Nation had failed them long before Katrina hit.
    Our promise to those who have survived the hurricane should 
not simply be to turn back the clock a month or two. It should 
be to fulfill the true promise of the American dream by 
committing ourselves to better health, better education, better 
job opportunities for them and all Americans.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Today's forum, as I mentioned, will proceed in a little 
different manner than a typical Senate hearing. This is a 
listening session. We want to know the ideas that are out 
there. We not only want to hear the ideas from the panelists, 
we want to hear from people across the country. We do have the 
capability on our Web site to accept suggestions, solutions, 
comments. We wouldn't even mind hearing some of the bad things 
that are happening and some of the good things that are 
happening. But what we will be concentrating on will be 
solutions, ways that we can solve problems. So, first of all, 
we have got to know what the problem is, and then any of your 
ideas for solutions, because you are the people on the ground 
who work with it on a daily basis and we expect that your ideas 
will probably be much simpler than the solutions we would come 
up with.
    So the primary purpose of this forum is to hear from the 
participants and get their short- and long-term solutions for 
Katrina. Accordingly, today's format will be a roundtable. 
There won't be any official oral statements made, but you can 
submit any statements that you wish for the record. That can be 
done either while you are here or electronically. Also, at the 
end, we will hopefully have a chance to get through everybody 
and hear their comments and suggestions. Then we may be able to 
have a time for some discussion about some of the solutions 
that have been given. Even if we don't, you will have the 
opportunity to put your comments and suggestions for that, 
again, on the Web site.
    The Web site will be open through the weekend. We had said 
that we were going to close it Friday night, but we are going 
to leave it open for the weekend for a couple of reasons. One, 
we need a little bit more time on it, but probably more 
importantly, our staffs have been working tremendously both to 
work on this as well as higher education, ACRI authorization, 
and pensions, which is also affected by Katrina. They even 
worked through last weekend, which was a holiday weekend, to 
get that done, so we won't expect them to start getting through 
the comments until Monday morning. But it is a crisis, and we 
have got tremendous staff on both sides of the aisle that have 
learned to work together and we will be expecting that again.
    So before we begin the discussion, I would like to 
introduce our distinguished panel of participants. We have 
Michael Casserly with the Great City Schools.
    We have Dr. Leonard Merrell, who is the Superintendent of 
Katy Independent School District.
    We have Dr. Diane Roussel, who is the Superintendent of the 
Jefferson Parish School District.
    Via teleconference, we have the Alabama Education 
Department Task Force, which consists of Dr. Eddie Johnson, who 
is the Department Superintendent; Feagin Johnson, who is the 
Assistant Superintendent; Craig Pouncy, who is the Assistant 
Superintendent; Maggie Rivers, the Director of Federal 
Programs; Perry Taylor, who is the School Architect; and Perry 
Fulton, who handles child nutrition.
    Via videoconference, we have over here Dr. Jennifer 
Leaning, who is Professor of the Practice of International 
Health at the Harvard School of Public Health. We have been 
having some difficulty with the microphone there, if it is 
possible, be sure that it is shut down until you speak, but I 
don't know if you can still hear. We want you to still be able 
to hear. They are having some microphone difficulties here, as 
you might be able to tell.
    We also have with us Lisa Cox, who is the Assistant 
Director for Federal Affairs at the National Association of 
Community Health Centers.
    We have Charlie Ware, who is the Chairman of the Wyoming 
Workforce Development Council and has come a long way for this.
    We have Mark Shriver, who is the Vice President and 
Managing Director for Save the Children.
    We have Kenneth Weigand, the Vice President for Human 
Resources at Walgreen's.
    We have Joseph E. Savoie, the Louisiana Commissioner of 
Higher Education.
    We have Kathleen Smith, the President of the Education 
Finance Council.
    We have Major Marilyn White, the National Consultant on 
Adult Ministries for the Salvation Army.
    We have Maurice Emsellem, is that right?
    Mr. Emsellem. [via telephone.] That is right.
    The Chairman. We haven't done it quite this way before. He 
is the Public Policy Director for the National Employment Law 
Project.
    We have Dr. Paul Anthony, who is the Chief Medical Officer 
of Pharmaceutical Research and Manufacturers Association.
    We have Jan Lane, who is the Vice President of Public 
Policy and Strategic Partnerships of the American Red Cross.
    And last but not least, Dr. Tom Kirsch, Johns Hopkins, a 
member of the American Red Cross Disaster Services and Health 
Care Team.
    We thank all of you for your participation and the various 
people that had to set up the technology to be able to bring it 
to us in this way. I know most of you have had to travel way 
across the country and in some instances have left some very 
important things that needed to be done to help us to begin 
this process, so thank you. We do want to listen. We need your 
experience.
    Obviously, the President and the Cabinet have broad 
authority for providing initial disaster relief through the 
Stafford Disaster and Relief Assistance Act, and then the 
Public Health Emergency Declaration by the Secretary of the 
Department of Health and Human Services, which came into effect 
in 2002, has made a significant difference.
    So now it is your turn to tell us what we need to do 
prospectively to help in the catastrophe. What are the current 
urgent needs facing people impacted by Hurricane Katrina and 
what steps can and should Congress do to help meet those needs? 
Let us begin, and we will begin with Michael Casserly of the 
Great City Schools. If we can kind of pass the microphones 
around so that people can all hear, I would appreciate it.

 STATEMENT OF MICHAEL CASSERLY, EXECUTIVE DIRECTOR, COUNCIL OF 
             THE GREAT CITY SCHOOLS, WASHINGTON, DC

    Mr. Casserly. Thank you very much, Mr. Chairman, and thank 
you very much for your leadership, and thank you to this 
committee for its leadership in this critical--in these 
critical days.
    I don't have a prepared statement for the committee because 
I know we are going to get into conversation, so I will be 
brief, and I do have a number of detailed recommendations and 
suggestions not only for the committee in its legislative work, 
but for the Department of Education in its regulatory work. 
When we get into the discussion, I would be happy to kind of 
get into some of those details.
    But I wanted to say first and foremost that I am really 
very proud of schools all over the country for stepping up to 
the plate and playing such a critical role in the relief and 
rebuilding efforts. They are taking in students and teachers 
from the affected areas. They are conducting feeding programs. 
They are housing students and their families. They are 
providing clothing and uniforms. They are providing 
transportation. They are providing tutoring and instruction. 
They are providing health and medical care.
    The districts that are part of our coalition, at least to 
date, we think have taken in some 25,000 students from the 
affected areas in school districting including Shreveport and 
Baton Rouge and Jackson, MS, Birmingham, but as far north as 
Chicago, Detroit, Milwaukee, all the way out to Portland, Long 
Beach, and other school districts. Our doors are wide open and 
we are receiving families and children all over the country.
    This is basically to say, Mr. Chairman, that we really 
think that education here, while it is not the only sector that 
can play a critical role in this relief effort, education and 
schools, in fact, are an important component of the relief, 
recovery, and rebuilding effort, not only in New Orleans and 
Jefferson County, but in all of the receiving areas, as well, 
and that this committee and that Congress in general ought to 
consider schools as an important component in the relief and 
rebuilding effort.
    To that end, we would suggest, Mr. Chairman and members of 
the committee, that Congress create a separate and dedicated 
fund for at least the Department of Education, but maybe for 
other agencies, as well, like the Department of Health and 
Human Services and Housing and Urban Development, to address 
some of the immediate areas or immediate issues, not only in 
the heavily impacted areas like New Orleans and Jefferson 
County, but in many of the receiving districts that are 
receiving students at such a large rate.
    We know that FEMA is playing a critical role in 
coordinating much of this, but each of the independent 
agencies, the Department of Education in particular, have a 
critical role to play and could be doing some things that FEMA 
either doesn't have the authority for or the expertise for or 
the time to do. We would suggest that the committee charge the 
various agencies with coordinating their work across the 
Federal Government with oversight by Congress.
    But we can't underscore enough how important it is for the 
Department of Education and other agencies, as well, to have 
the resources that they need and the authority that they need 
to play a critical and coordinated role with FEMA in the 
provision of relief for New Orleans, Jefferson County, Biloxi, 
and other affected areas, and for the receiving areas.
    We would also like to suggest that Congress find a way in 
the legislation that is now pending in front of it to create 
some dedicated funding for the cities and school districts that 
are usually independent of their cities in New Orleans, in 
Jefferson County, and the like. These school districts are in 
immediate need of cash resources to pay the bills, to honor 
contracts, to honor payrolls and the like, and to immediately 
begin and coordinate the rebuilding efforts in their individual 
communities. We think it is important that those heavily-
impacted communities have some dedicated resources that are 
going straight to them. As the chairman mentioned, the revenue 
base of these communities has been devastated and they need 
some immediate cash relief and there are some legislative 
barriers currently in place that Congress probably ought to 
consider bringing down.
    Let me just kind of update people on New Orleans in 
general. As you know, this is a school district, and I know the 
superintendent from Jefferson County will update people on the 
Jefferson County situation, but New Orleans Public School 
System is a school district with about 70,000 kids. About 80 
percent of them are students receiving free and reduced-price 
lunches. About 94 percent of them are African-American. They 
have a school district of about 128 schools. All but eight of 
those schools were flooded in the storm and after the levees 
broke.
    The school system itself has been able to identify through 
its hotline about 2,500 of its staff members and is working 
hard to get out the next payroll that they are doing through an 
off-site service in New Jersey. They are struggling mightily to 
keep their system afloat financially. They are well into their 
reserve fund and are just about tapped out.
    With the eight schools that were not flooded--this is in 
the West Bank area of the city--they have two high schools that 
they still have in place. Then they have six other schools that 
were not flooded, and they are trying desperately to bring 
those two high schools back online and then convert the other 
six schools to K-8 schools, and they think they can serve 
someplace around 2,800 kids in the two high schools and another 
4,000 kids in the other six K-8 schools, and if they double-
schedule the kids, they may be able to serve as many as 13,000 
kids within a matter of months. They are desperately trying to 
reopen at least some of the schools and make sure that as 
workers come back in, which the city is desperately going to 
need to rebuild itself, that the parents and the workers have 
schools in which they can place their kids.
    We would strongly urge the committee, and again, I have 
some detailed suggestions on legislation and regulatory things, 
but that Congress authorize a separate set of funds through the 
Department of Education that can be used for immediate relief, 
not only for the impacted schools, but for some of the 
receiving schools, and then to coordinate those efforts across 
the various agencies and to put some revenue relief in place 
immediately for New Orleans, Jefferson County, and some of the 
other affected school districts. I would be happy to get into 
some of the details as we go further in the discussion today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Leonard Merrell?

   STATEMENT OF LEONARD MERRELL, Ed.D., SUPERINTENDENT, KATY 
            INDEPENDENT SCHOOL DISTRICT, KATY, TEXAS

    Mr. Merrell. Mr. Chairman and Senators, thank you very much 
for the opportunity to be here today and thank you for 
listening and being concerned about what is going on around 
this Nation.
    Katy Independent School District is a school district of 
47,000 students. We are in the West Houston part of Harris 
County, comprised of three counties. We are a fast-growing 
district, so we are kind of used to seeing 2,500 to 3,200 
students each year coming into our district. So because of 
that, we do have some experience with fast growth, but nothing 
to compare to what we have seen lately.
    As I sat here, and certainly Senator Kennedy's comments, I 
appreciate those, and certainly if we could do many of the 
things, in fact, possibly all of them, but certainly many of 
them as quickly as possible, I think his comments could be read 
again and we could move pretty quickly if we could do that with 
the comments that he just said.
    But my thought as I sat here and listened to the comments 
that have been made up to this point in time, I am reminded of 
what has happened in our school district. When obviously we 
observed what was happening in Louisiana and Mississippi and 
Alabama and other parts of the country, we knew we would be 
affected, but we didn't know exactly how. But very quickly, we 
started getting in evacuees, families that were coming in with 
nothing but simply what they had in their hand. Since about 
last Thursday, we have enrolled over 900 students. We will 
probably enroll, my guess is, today, about 300 students. We 
enrolled over 300 yesterday alone.
    From the very first day that we knew that we were going to 
get one student or hundreds of students, our plan has been to 
get those students in school as quickly as possible and to meet 
every possible need that those students had that we could meet. 
They were coming to us with no transcripts and with health 
records that were mostly gone, grade placements. Things like 
that were just issues that many times we just got incomplete 
information on. But we knew without question that our first 
obligation was to those families and specifically to those 
children that needed to go into school.
    We didn't forget about the cost. We didn't forget about 
where that money was coming from, and I will not spend but only 
five seconds just simply saying that you have read about the 
plight of Texas finance and things aren't resolved in that 
State yet regarding school finance. However, it was never our 
thought that we wouldn't take as many children in our district 
as we needed to and that wanted to come to our district, and 
indeed, they are coming in very quickly.
    We had those children in school almost immediately. When 
they walked into the building, it was like it was time to go to 
school, and they were in the school. We had agencies that were 
helping us.
    And I am reminded where I was going initially with these 
comments. I am reminded in a much, much smaller way of what it 
has taken for us to be able to get--we have had upwards to 
3,000 families that have come into our school district that are 
being taken care of by a number of different agencies, from the 
Katy Christian Ministries to the Chambers of Commerce to the 
churches to the local EMSs to our city of Katy and our school 
district. We could never have done what we are doing without 
every one of those individuals and those entities doing their 
work. We have had calls and e-mails and actually goods sent 
from all over the Nation to our community to help those 
individuals that are coming to our particular district.
    I also represent 54 school districts in what we know as the 
Region Four area, which encompasses all of Harris County. You 
have seen many times already and many accounts of what is 
happening in Houston ISD and the thousands that are in the 
Astrodome and the busing that is necessary to get them out to 
the schools, and so that is a challenge that is--it is almost 
impossible for them to accomplish everything they need to do. 
But I do know from a meeting I had with the Superintendent of 
Houston just a day or so ago that they will, indeed, meet that 
challenge, and they are, indeed, meeting that challenge as we 
speak today.
    There are so many needs that I am sure will be articulated 
around this table that I won't try to repeat them all. But 
these children are coming to a new land, and we are getting 
children that have many needs, and not just the educational 
needs that they have, but obviously they have lost in most 
cases everything that they own. And what our responsibility is 
is not only to educate them, but to give them the dignity back 
that we want them to have to be able to live and to go on from 
here.
    We know from not only what we read, but we know from what 
we have been told from people who have been a part of disaster 
planning and trying to solve the issues that come up with 
disasters that this is only the beginning. And because it is 
only the beginning of a life for so many evacuees, we must look 
long-term at how we are going to deal not only with the 
students that are in our district that so many of them are 
saying to us that they are there to stay. They are not going 
back. That is what they say initially. What they do, who knows 
what they will do, but that is what they are saying at this 
point in time.
    The psychological needs, their mental State is something 
that we are very cognizant of, not only of those students that 
have come into our district, but our district itself. We are 
fast-growing, but that doesn't mean we have an endless amount 
of space in our district, and that space is being taken very 
quickly.
    So I would just urge you to continue to look at how you 
could fund these expenses, not only that we have, but expenses 
that so many other districts, and the ones that obviously are 
impacted directly by this in those States already mentioned.
    I couldn't, as a school district superintendent, come to a 
meeting like this without at least mentioning to you how No 
Child Left Behind will be affected by this, whether it is in 
our district or some of the other affected districts. The 
notation of ``highly qualified teachers'' and the calculations 
of that, the annual yearly progress that certainly we are 
measured on each and every year, all the accountability issues 
that are there, we have taken all of No Child Left Behind and 
continue to try to raise our accountability efforts, and it is 
a matter of record so you can look and see that we have done an 
excellent job, our teachers have.
    I worry about our teachers who are impacted by this. We 
have been interviewing teachers from Louisiana, Mississippi. We 
have started to employ some of them on a just ``as needed'' 
basis. We haven't needed to employ a large number yet, but I 
think that we probably will if the numbers continue to rise.
    We are there in Texas to help our neighbors. We believe 
from the very beginning, from the day one that I met with my 
staff, a relatively large number of people that have to do with 
everything from the education of these children to the 
transportation to the feeding, all of those things, the medical 
end of this thing, that it was our belief from the beginning 
that we had a legal, but more importantly, we had a moral 
responsibility to help in every way that we can, and we see 
individuals doing more than you would ever expect individuals 
to do. You see that all across this country. It is witnessed 
every day in Katy, TX.
    And so I am here today to tell you that we are pleased to 
do our part in helping the evacuees as they move to other 
places and as they decide how they are going to deal with their 
lives, the future. But we also would just ask you to, as these 
agencies that I have mentioned earlier have stepped up and they 
have done whatever is necessary to meet the needs of these 
evacuees, we would just ask our Federal Government to be that 
same partner with us as we look for the funding that is 
necessary, not only in Texas, but all across this Nation that 
is impacted by this.
    I would be pleased to answer any questions about what we 
are doing in our district to meet the needs. And I will assure 
you, Senator, that those 900 children that have enrolled in the 
Katy School District were having school today. Those kids are 
in nice, calm classrooms, welcomed with open arms by the other 
students who do understand, very vividly understand, what is 
going on in our neighboring States. I will assure you they have 
been welcomed, probably more than any other group has been 
welcomed to our district. So we are pleased to be able to do 
that and I again thank you for giving me the opportunity to 
speak today.
    The Chairman. Thank you very much, and thanks for all of 
your effort at accommodating these people, you and your 
district and community.
    Dr. Diane Roussel?

STATEMENT OF DIANE ROUSSEL, Ed.D., SUPERINTENDENT OF JEFFERSON 
               PARISH SCHOOL DISTRICT, LOUISIANA

    Ms. Roussel. Good morning. I come, I guess, from what I 
guess you would call the hurricane front. I am surrounded in 
part of the area that was hit hardest with the hurricane. 
Jefferson Parish has 450,000 residents. We have 84 schools and 
52,000 students. For anyone to assume the responsibility of all 
of those children is significant, especially in other places.
    I feel as though I am the spokesperson for St. Bernard, 
Clackamas, Orleans, and the areas that really did flood. We 
have parishes that are underwater and that will be totally 
underwater for a long time. Our proximity to those school 
systems makes us sort of probably the first to be able to come 
back, because we sustained much wind damage, but our parish is 
working diligently to restore electricity and other means, 
water, everything that is basic to existence.
    About one-third of our schools could come back as early as 
we are allowed back into our parish. I think that is important 
in the light of what you said, Mr. Casserly, that if we can 
recreate the hub or the economic development in that area so 
that we can receive funds and generate funds, it would be very 
important to us.
    I think Senator Kennedy captured it vividly, the 
description. We have been through hurricanes, but nothing like 
this. We have grown up with hurricanes, but nothing like this. 
And we have grown up with flooding.
    So if one-third of our schools can be repaired, I would 
tell you there is probably another half that we could isolate 
parts of the building off and start up again, not just for 
Jefferson, but for St. Bernard, Orleans, and Clackamas. The 
flooding waters will take a long time for those other parishes 
and the economy generation is extremely important in that area, 
in our area.
    Some of our schools will never reopen. Some will reopen in 
2006, 2007. We will be a fluid school system, meaning that we 
will have to send children out for a while, but if you know 
anything about my part of the world, they are very community-
oriented and very family-oriented and they want to come back. 
There is a culture where the children go to school and come 
back.
    We must rebuild quickly. My concern is that if we are not 
allowed in and we do not rebuild quickly, that people will stay 
away, that our teachers will not come back, that our workers 
will not come back, and a whole significant part of this 
economy in the State and in the United States will be gone, not 
to mention the culture and the human resource.
    When I speak for my sister parishes, I would like to say 
that if you combine all of our student populations--I have 
84,000, Orleans has over 100,000, and we are only talking 
public school children. If you know anything about our part of 
the world, 40 percent of our children go to private and 
parochial. So the student population is much larger than people 
imagine. Our workforce exceeds well over 15,000, 20,000 people.
    We have issues, and I would like to talk about those issues 
and needs. Funding--in an effort to help other school systems 
who are taking our children, our State has said they will take 
one-third of our minimum foundation funds. In a school system 
that is totally dependent, 50 percent or more, on sales tax and 
property tax, I am already down 50 percent, and then goes 
another third. We need that money just to maintain, rebuild, 
and reopen.
    Senator Kennedy. Could you explain that one more time?
    Ms. Roussel. Yes. My part of the world, we have property 
tax, but not to the extent that other places have property tax. 
Our concern with the millage is that the people are out of 
work, their homes are destroyed, and their ability to pay those 
millages are gone. As you said, sales tax for Jefferson Parish, 
that means $12 million a month for each and every--we are the 
largest or second-largest parish in Louisiana and considered, 
basically because of our industry in the parish, to be one of 
the more affluent when we are up and running, not in terms of 
children and poverty by any means because we have plenty of 
those. We have 80 percent children in poverty. But without the 
sales tax base, without the millage, and the minimum foundation 
program is a per pupil amount given to our schools, and if a 
third of that is gone, the fund balance that we had become so 
proud of in 3 years is gone in less than 6 weeks.
    Other things that concern us are the way we do paperwork, 
the cash flow. Typically, we have to spend, document, and be 
reimbursed. We can't do that. Our budgets are gone, and I guess 
we are asking for Federal help, State help.
    [Pause.]
    Ms. Roussel. I apologize.
    Senator Kennedy. Just take your time. These are very 
difficult to talk about, so we all understand that. We are very 
grateful for your presentation here.
    Ms. Roussel. I don't think people have ever seen me cry, so 
this will be a first on national TV.
    Senator Kennedy. There you go.
    [Laughter.]
    Ms. Roussel. I am pretty tough, so this is interesting. I 
grew up with three brothers and was a high school principal, so 
I can do pretty much anything.
    [Laughter.]
    We would like to hold on to what we have and improve what 
we have. We are not sure what is going to happen. The longer it 
takes us to rebuild, the more we lose. Residents and students 
won't come back, teachers. We need financial help.
    In legislative authority, my school board yesterday gave me 
unprecedented authority to do what needs to be done to quickly 
secure contracts, supplies, repairs. Anything else at any other 
level that can be done to expedite our powers in doing this is 
needed. We really are ready to begin and we believe that our 
hands are tied.
    I have been known to speak directly, and I also have been 
one to say that money is not always the cure for the ills of 
public education. But in talking about facilities, textbooks, 
computers, supplies, attracting and maintaining a quality 
workforce, money is the answer.
    I would also ask that you waive the requirements on the use 
of Federal funds that were allocated to us. If we had more 
leeway in using those funds, we could use them for the purposes 
we needed. That will be hard, because we are funded for the 
number of students we have. Right now, we have none, or we may 
have a reduced number.
    We are getting calls from across the country and it is a 
very generous Nation. I think the concern that comes to us, 
that we need some direction to give people on what we need 
besides after we get over survival, what do we need from there, 
and to elicit those funds to really target them for what we 
need.
    I think we need to remember that everyone was affected--
poor, middle class, rich. We all were supposed to leave. Some 
couldn't. If we can get schools, a third, a half, up and 
running, I can envision temporary housing coming in for the 
people to come to those schools, to start working, to help us 
rebuild. That temporary housing could be on school grounds. We 
could create small cities or whatever is needed, parks, 
playgrounds, churches.
    When the schools open, the people will come back. When the 
schools open, business will come back. People choose where they 
live and work based on schools. Our people want to come home 
and we want them home. Jefferson has the best shot at being the 
new hub for an area devastated.
    Our link to economic development, education has always had 
that link and the schools are the heart of our community. The 
State of Louisiana will suffer significantly from lessened 
revenue and then the effect will be felt in the United States. 
I have a quotation that says, the greater the gift, the greater 
the responsibility, and America has always recognized that it 
has great gifts and they have helped in 9/11 and in 
Southeastern Louisiana, we are asking for help now.
    We have some lessons we learned, in case you want to hear 
those. I am keeping a book. I think we might have really 
detailed procedures after this, Senators, because we had 
hurricane preparedness, but nobody was ready for this.
    Communication was crippling, not only for police. 
Government leaders, emergency leaders, public leaders, we could 
not communicate with each other. I guess there is a lesson 
there. I have three phones right now and every now and then, 
one works. But the lessons that we learned is that we were in 
danger without that and we couldn't mobilize anyone.
    We have spoken to FEMA, and I would ask in regards to FEMA 
that you consider the following. We need a person there that 
understands the knowledge of schools, their needs and large-
scale destruction. We need the actual documents in print, which 
I am sure we can find once we are up and running, that give us 
the rules and regulations for what happens in a disaster. While 
there are accommodations for disaster and good laws, we need to 
emphasize the extreme emergency and urgency. Whatever can be 
suspended in those bid laws needs to be suspended, and we are 
asking that the 25 percent reimbursement to FEMA be waived.
    I have heard about the transfer of student records. I have 
good news. In Louisiana, we are all on one computer base, so we 
can look at everybody's data, and if you are on the same one, 
we can send it to you. We did retrieve some of our file servers 
and other important documentation and the State Department of 
Education has access to that, also.
    I finish with in every challenge, there is opportunity, and 
there is opportunity to do things better. There is opportunity 
to do love and support our neighbors, our fellow Americans. The 
biggest opportunity comes in the infrastructure structures, 
community issues and inequities that we knew existed but could 
never bring to conclusion or resolution. We have the 
opportunity to correct all those things.
    You have our commitment to do whatever it takes. Enable us 
to do what it takes. Thank you.
    [The prepared statement of Diane Roussel follows:]

                  Prepared Statement of Diane Roussel

    Senator Frist and distinguished members of the Health, Education, 
Labor, and Pension Committee, I am Diane Roussel, superintendent of the 
Jefferson parish Public School System in Louisiana. The Jefferson 
Parish Public School System educates more than 52,000 students in 84 
schools and employs more than 6,000 teachers, administrators, and 
skilled workers. We are the largest employer in a parish of 450,000 
residents. We share boundaries with Orleans, St. Tammany, St. Bernard, 
and Plaquemines parishes--all off which were affected by Hurricane 
Katrina.
    All of the above named school systems, including the Jefferson 
Parish Public School System, have been through some trying times, but 
nothing equals this. We have been through hurricanes, but nothing equal 
to this. We've been through floods, but nothing equal to this.
    Of our 84 schools in Jefferson Parish, we expect \1/3\ to be usable 
as soon as the streets are cleared, utilities are restored, and our 
citizens can move back to their homes. We believe the rest will need 
repair, some significant repair, and one or two may be closed.
    Jefferson was not plagued with rising water like New Orleans, St. 
Bernard, and Plaquemines parishes. Some of those communities are 
literally gone. Our neighbors are all flooded. St. Tammany, to the 
north, sustained damage, but not to the extent as the rest of us. Their 
schools are slated to open in October. However, none of us are in good 
shape.
    Jefferson will re-open schools as they are usable and capable of 
being financed throughout the 2005-2006 school year. Some will not be 
ready to re-open until 2006-2007.
    With much of the New Orleans area, Plaquemines, and St. Bernard 
under water, the need for Jefferson to come back quickly intensifies. 
Jefferson has the best opportunity of becoming the temporary hub of 
economic development and education in the area. It can, and must, 
rebuild quickly--not only for itself, but for the surrounding parishes 
due to our proximity to the worst hit areas. They must deal with water 
before they can even begin to rebuild.
    Let me now speak for all my sister parishes. All of us need to be 
rebuilt and to re-open as quickly as possible. Our combined student 
populations approach 200,000. Our combined workforces exceed 15,000 and 
are a direct, significant influence affecting the economy.
    In order that we may move efficiently toward the restoration of 
education and the economic systems in our area, our needs can be 
delineated as follows:

    <bullet> Funding issues: We are all being told by the State of 
Louisiana Department of Education that our minimum foundation program 
funds will be sent to other school systems at a time when we need those 
monies to pay employees, replace lost instructional materials, and 
rebuild ourselves.
    Most, if not all of us, are sales tax dependent. There will be no 
sales tax collected for months to come. Materials for repairs will 
probably not be bought in our parishes. For Jefferson, that equals 
approximately $12 million dollars per month. The other school systems 
are also negatively impacted by the loss of sales tax revenue.
    How do we collect property taxes from people who cannot return to 
their homes or are out of work? More than 1 million people do not know 
answers to critical questions: where will they live, where will they 
work, where will their children go to school?
    Our budgets are decimated.
    We need additional Federal help to hold onto our people and be able 
to rebuild. Many of our employees will be put on unemployment. We will 
pay the unemployment. Our people are worried about the difference in 
their salaries and unemployment benefits, as well as their retirement 
and insurance benefits. We, too, are concerned.
    We had finally gotten to the point in Jefferson of having 96 
percent highly qualified and certified teachers.
    What will happen now? How many will return if we take too long to 
rebuild? How many residents and students will return if we take too 
long to rebuild?
    We need financial help from Federal and State sources.
    In relation to legislative authority, my school board has given me 
unprecedented powers in this emergency to enable us to act quickly to 
secure contractors and supplies to repair and reconstruct schools.
    We need anything and everything restricting superintendents' and 
school boards' powers at the State, Federal, and local levels to be 
suspended during this time of crisis. We are all ready to begin, but we 
feel that our hands are tied.
    I have been one of those people known to speak directly. I have 
also been one that has stated that money is not always the cure for the 
ills of public education. But, when you are talking about facilities, 
textbooks, computers, and supplies, and about attracting and 
maintaining a quality workforce--money is the answer.
    Our priorities must change.
    Besides additional emergency Federal and State funding, we need 
waivers for the use of Federal funds we are currently entitled to to be 
able to direct them to areas of critical need. Even though some of us 
are not housing students or are housing a reduced number of students, 
let us use the money we were allocated to do what we need to do.
    I implore you to waive the use of these funds for projects deemed 
necessary at the local school system level. Calls from across the 
country offering help are coming in. Here is what we can do with your 
help.

Housing is a Necessity

    Remember that everyone was affected--poor, middle class, and rich. 
We need temporary housing for our people in our areas so the reopening 
and rebuilding of schools can occur. Help us secure this housing. Put 
it on school grounds. Parish officials can open parks, playgrounds, and 
even churches too can be used for this purpose.
    This needs to happen as schools are opened so that our community 
can return. Our people in southeast Louisiana have a strong sense of 
community and family. They want to come home. We want them to come 
home. They want to be part of the rebuilding, once conditions are safe. 
And, they will be safe in Jefferson before they are safe elsewhere.
    I ask the private sector to help with this housing and while 
specific supplies are needed by all and while we are asking for those, 
perhaps gift cards, gift certificates to meet specific needs and food 
discounts and coupons could be issued to supply what actually is 
needed. Sending these items across the country would be more efficient.
    Economic development has always been linked to education. Our 
economic recovery is also linked to education. Re-open the schools and 
businesses and the workforce will return. Schools are the heart of 
every community. People decide where to live or not live based on area 
schools. If our schools do not re-open soon, our communities will be 
gone.
    The State of Louisiana will suffer significantly from lessened 
revenue and from less oil and gas production. Our country will also 
suffer.
    One of my favorite quotations is ``the greater the gift, the 
greater the responsibility.''
    The United States of America knows what that means. It has always 
recognized its gifts and has helped others. We helped our own in post-
911, and it is time to help southeastern Louisiana. We are not too 
proud to ask and to say that we need help.
    In regard to No Child Left Behind, quite honestly, we are not 
capable of working to meet these goals in 2005-2006. And, for some of 
us, we may not be able to do so in 2006-2007. I believe everyone knows 
this, understands the circumstances, and will agree to a waiver of 
deferment.
    In the arena of communication, the lessons learned from and by all 
of us, whether we are police, Government leaders, or emergency 
personnel who could not communicate with each other, are lessons for 
Homeland Security. When communication is down, we are all at risk, we 
are all in danger, and we are unable to protect ourselves. Expensive 
telephones and services did not work.
    And, in regards to FEMA: As we sat in a meeting with our State 
Superintendent Cecil Picard, superintendents of disaster school systems 
and receiving school systems, along with representatives of FEMA, the 
following became apparent:

    <bullet> (1) Knowledge of schools and their needs, especially in 
terms of large scale destruction was lacking. Questions could not be 
answered.
    <bullet> (2) We were recited passages from a lengthy document that 
we did not have. When asked if they brought copies, the answer was no. 
Are we to find this on our own?
    <bullet> (3) Bid law was an issue with FEMA. We do not have the 
time or leisure to follow bid laws. And, this is what is required even 
in a crisis situation to be eligible for reimbursement. We need to 
emphasize to you the extreme sense of emergency and urgency that we are 
all feeling. Trust us, and suspend the rules for a period of time. We 
are in a time when trust is needed. We need to trust our neighbors. We 
need to trust our fellow Americans. We need to trust our public 
leaders.
    <bullet> (4) We are asking that you suspend/eliminate the 25 
percent reimbursement to FEMA required from us in order that we may use 
all of our funds to rebuild.

    Finally, I was asked about the transfer of student records across 
the country. This is no problem in the State of Louisiana as the State 
can view all of our student records and can send them elsewhere, 
assuming we are on the same operating system or are all web based.
    I will relay this concern to our State superintendent as I am sure 
that he is already working on it. My offices are currently housed in 
his building.
    I conclude with, in every challenge, there is opportunity. We have 
the opportunity to love and support our neighbors, our fellow 
Americans. We have the opportunity to correct some of the 
infrastructures, structures, community issues, and inequities that we 
know have existed but could never bring to conclusion or resolution. We 
have the opportunity to bring the economy, culture, and natural and 
human resources of southeastern Louisiana back to America.
    You have our commitment to do whatever it takes. Enable us to do 
what it takes. It will take all of us with trust in each other and 
trust in God.
    I sincerely thank you for your time. And, if I can be of further 
service, I will gladly do so.

    The Chairman. Thank you very much.
    We heard from a receiving school and from a school 
underwater, but we need to hear a little bit from higher 
education, I think, at this point, so I am going to skip to Dr. 
Savoie for his comments next, then we will move on to Alabama 
Education.

STATEMENT OF E. JOSEPH SAVOIE, Ed.D., LOUISIANA COMMISSIONER OF 
            HIGHER EDUCATION, BATON ROUGE, LOUISIANA

    Mr. Savoie. Thank you, Mr. Chairman and members of the 
committee. We appreciate very much the opportunity to visit 
with you and extend our hand of partnership with Superintendent 
Roussel. She and I worked together on a variety of education 
reform initiatives and she is one of our best. Her words are 
sincere, heartfelt, and she walks the walk, not just talks the 
talk. So hang in there, Diane. We will get through it.
    The impact for Louisiana postsecondary education, higher 
education, was significant. I have given the committee some 
aerial photographs of several of our campuses. I won't go 
through each one, but you can see the significance of the 
flooding on these campuses. These pictures were taken just 2 
days ago, so these campuses have been underwater for over a 
week now. We had not had the ability to go on-site and do any 
sort of assessment, but you can imagine the ultimate condition 
of these facilities.
    We had about--we had nine public campuses that were 
flooded, six private campuses in the Orleans and St. Bernard 
area that suffered these circumstances. That represents about 
25 percent of our total enrollment in postsecondary education, 
just from those campuses.
    But we also had many nearby campuses who didn't have the 
flooding problem, had wind and power problems. Some just opened 
in the last couple of days. By the way, the ones that are 
flooded, we have no idea when they might be able to reopen. 
Some of our campuses were affected because of their proximity 
to the area. Southeastern Louisiana University, for example, in 
Hammond has about 7,000 of its students and faculty who live in 
Jefferson and Orleans Parish who have lost their homes and that 
has significantly affected them, as well. Nickles State, just 
south of there, served as a medical triage center and housed 
several thousand evacuees without power for a week, and they 
just got that on yesterday. We are very proud of the way the 
faculty and the staff responded there.
    All of our campuses immediately came together to respond to 
the needs of these that were most affected. I think for 
purposes of context, and the superintendent referenced that, it 
is important to understand some of the traits that go with New 
Orleans and Louisiana, the family orientation. Ninety percent 
of the students at our public institutions are native-born and 
go to school and live near the campuses in which they attend. 
These students not only lost their colleges and universities, 
they lost their homes and their parents lost their jobs.
    Our other campuses responded by immediately enrolling any 
displaced student at no additional cost, extending room and 
board to them at no additional cost. Interestingly, we had 
families move in with their sons and daughters in dormitories 
and we fed them in our cafeterias and continue to do so. All of 
our other campuses that were able, every available facility is 
being used for evacuation shelters. We are running two medical 
triage centers. We have served as staging sites for the 
helicopters that you saw doing the evacuations. Because of the 
significant native-born population, we continue to serve 
citizens from across the State.
    We immediately moved to suspend all of our State-funded 
financial aid issues so that students wouldn't have those 
concerns. We have deferred any sort of payment. We immediately 
moved to try to secure our faculty who were displaced, as well, 
to commit to them job stability. We established a clearinghouse 
to identify them and to place them in other campuses. Our 
colleges have so far absorbed about 10,000 new students for 
which they were not prepared for which there is no funding, for 
which there is no requirement of tuition, but they are using 
reserves and other methods in order to serve those students.
    Our colleges of education are providing pre-service 
teachers to serve as preschool instructors and run daycare 
centers in shelters. Our deans at the colleges of education are 
transforming our education courses from classroom to clinical 
environments so that we can put new student teachers into the 
shelters. Our community and technical colleges are offering 
workforce training in the construction trades at the evacuation 
shelters so that people can get meaningful jobs and help 
rebuild their own communities.
    The point is that every one of our campuses was affected. 
Every single campus in some way was affected, some by the 
devastation of the storm, others by the tremendous financial 
pressures that have been placed upon them.
    We have some immediate needs. Urgent immediate needs. We 
need significant regulatory relief on all sorts of student 
financial aid. The Department has been responding with a series 
of decisions providing some greater flexibility, but we need 
maximum flexibility in handling financial aid.
    As it relates to financial aid, most of the programs have 
been oriented around need-based aid, but I think in light of 
what has happened to us, we need a much broader definition of 
what need-based aid is. On the 2004 tax returns, families would 
report their income levels and you determine an expected family 
contribution rate in determination of what you might receive in 
Federal funds. We now have multiples of people who have lost 
their jobs, who have no source of income, who have lost their 
homes and cannot be expected to contribute family resources 
toward their children's education. So need-based aid is not 
just a lower-income need now. It crosses the whole economic 
spectrum of our students, so we need a much broader definition 
of that.
    We need to maintain the financial viability of our 
institutions, those not only who are affected most 
dramatically, but those who have absorbed the additional 
responsibilities when we have been working with FEMA onsite and 
trying to get a sense of what we might be able to recover from 
their programs. FEMA's programs are mostly resources for 
repair, replacement of things, of tangible things. We have 
damaged schools. It is not just buildings and equipment. We 
have lost all the revenues that come from student attendance, 
things like tuition.
    Just to give you an example, just the New Orleans 
institutions from the fall enrollment will lose over $60 
million this first semester. They also will lose payments 
toward all their auxiliary services, like dormitory payments, 
bookstores, cafeterias, recreation centers. There are no 
resources to maintain obligations in that regard. People have 
lost homes and they will also, many of them will lose their 
jobs. Students will not have opportunities to earn money to 
help pay for their education.
    We have significant cost to our receiving institutions, 
from providing the shelters, providing help in the schools and 
workforce training. We have added significant expenses and 
there are no revenues. When you get into these situations, if 
Government does not help, then it will not get done.
    We need a disaster assistance fund for our institutions. We 
think that on the short-term, this may be an understatement in 
the long-term. The short-term, we need at least $500 million. 
We need a displaced student aid fund for students of all levels 
of another $500 million.
    Now, as I mentioned, FEMA deals with tangible things, but 
there are many intangible losses that you can't evidence on an 
expense sheet. We are at risk of losing the confidence and 
commitment of our faculty, and college faculty are very mobile 
by nature. We cannot afford to lose them. We have to persuade 
them to stay with us and help us to rebuild Louisiana. We are 
at risk of losing our competitive position in the marketplace. 
We are at risk of losing the confidence of our students and our 
communities.
    And most importantly, I think we are at risk of losing hope 
for administrators, faculty, staff, and communities themselves. 
Remember the local nature of our institutions and the 
communities that they serve and the local nature of our 
students. Schools and colleges and universities are the 
economic, social hubs of those communities. If these 
institutions are not viable, the communities will not be 
viable. Our institutions represent hope for a brighter future 
and a rebuilt future because in education, we are in the hope 
business. So we need your help to help us reestablish that 
hope.
    That concludes my comments, Mr. Chairman.
    The Chairman. Thank you very much.
    We have--what you talked about hits kind of close to home 
with our committee because we had an intern over the summer who 
was a new enrollee at Tulane and is now back here wondering 
what is happening to his life, and he is in the audience here, 
too, waiting to see what kind of decisions are going to be----
    Mr. Savoie. Well, Tulane has announced that they will be 
unable to open this semester and hopefully sometime in the 
spring.
    The Chairman. Thank you.
    And now, by teleconference, we have the Alabama Education 
Department Task Force, and we appreciate them coming through on 
short notice like this and participating in this way. It is 
unique, but if we could hear from the Task Force.

STATEMENT OF EDDIE JOHNSON, Ph.D., DEPUTY STATE SUPERINTENDENT 
                     OF EDUCATION, ALABAMA

    Mr. Johnson. [via telephone.] Good morning, Mr. Chairman. 
My name is Eddie Johnson. I am part of the Alabama Education 
Task Force. I am here today with all of our Task Force members. 
We have been meeting on a daily basis to address the immediate 
needs of students who have been displaced due to Hurricane 
Katrina. Our State Superintendent, Dr. Joe Morton, is presently 
conducting a State Board of Education meeting and he is 
presently briefing the State Board members on the activities 
that are being conducted in Alabama.
    First of all, we want to ditto everything that has been 
said relative to the needs of displaced students. Our major 
goal here in Alabama has been to ensure that we effectively 
communicate with the parents of displaced students and also the 
LEAs that are receiving these students to ensure that they 
understand what needs to be done to provide services. We have 
communicated these issues on a daily basis.
    We have also done a survey of the numbers of displaced 
students. Presently, we have about 3,500 students throughout 
Alabama as of today and we expect those numbers to increase on 
a daily basis.
    We have done a survey of needs to determine the needs that 
we must receive in order to address the needs for the students, 
and basically, we feel that in the educational arena here in 
Alabama, we will need funds to address this need for additional 
classrooms, funds to hire additional teachers, and there are 
facility repairs that we presently need funds for those 
purposes that were caused because of Hurricane Katrina. We will 
continue to monitor this process and progress and keep you 
posted, but our basic concern now is to address displaced 
Hurricane Katrina students. Thank you.
    Senator Kennedy. Mr. Chairman, could I ask, sir, what your 
ballpark figure is in terms of the resources? This is going to 
be an evolving situation. What is your own kind of assessment? 
We have heard with regard to the public colleges in Louisiana. 
Of course, that doesn't include the private colleges. It 
doesn't include the Historic Black Colleges. Do you have any 
ballpark figures, what you are talking about?
    Mr. Johnson. We are presently assessing those needs. We 
have 130 school systems. The immediate needs of school system A 
may be different from that of B, so we will determine that 
hopefully by the end of the week. Some of the schools may be 
able to accommodate a few additional students without any 
additional funds and others may require a lot of funds. We have 
areas such as Mobile, Choctaw, and those on the Mississippi 
line that are in greater need than some of the other school 
systems, and so we hope to have that information tabulated by 
the end of the week. But right now, we just don't know. There 
are needs all over the State. We are working with the 
Governor's office and Homeland Security and FEMA on a daily 
basis to determine what those needs are, and as soon as we get 
them compiled, we will surely communicate that to all of the 
individuals that are involved.
    Senator Kennedy. Thank you very much.
    The Chairman. Thank you. As you get those estimates, if you 
would share those with us, we would certainly appreciate that. 
Hopefully, others who might be listening throughout the country 
that have numbers, I am an accountant. I love the numbers. So 
if you would share those with us, we would appreciate it.
    We also have with us the President of the Education Finance 
Council, so Kathleen Smith?

   STATEMENT OF KATHLEEN SMITH, PRESIDENT, EDUCATION FINANCE 
                    COUNCIL, WASHINGTON, DC

    Ms. Smith. Thank you, Mr. Chairman. I commend you and the 
rest of the committee members for bringing this distinguished 
group of people together. I think it makes clear both your 
commitment and ours to do whatever we need to do to help these 
students and families get their life back on track.
    This devastation has clearly moved everybody and you have 
the sense both personally and as an organization of 
helplessness about what the right thing to do is.
    I represent the Education Finance Council, which are 
nonprofit and state-based student loans secondary markets 
across the country. In preparing to come here today, I reached 
out to them and the consistent answer for all of them is, they 
want as much flexibility as possible. The last thing anybody in 
our business wants to do is worry about students getting 
dunning notices to an address that doesn't exist anymore or 
have them concerned about paying a student loan when they don't 
know where they're going to live that afternoon.
    So flexibility is the key. The Department of Education, as 
has already been mentioned, has reached out to us and provided 
some flexibility initially. One way that we could advance that 
flexibility is by the amendment and then passage of the HEROES 
extension. There is a bill in place right now, a law in place 
right now that allows the Department of Education pretty broad 
waiver authority for natural disasters, but I think there is a 
technicality in that bill that needs to be fixed. I don't think 
this is a declared Federal emergency, and that is what that 
bill is around right now.
    So I think flexibility is important. I think allowing our 
members who are servicing students in their community to deal 
with them on an individual basis to address their needs, to 
make sure that we have information and guidance from the 
Department, again, who is doing a good job and establish their 
own Web site to act as a sort of central clearinghouse for 
information on this disaster, to allow us to make sure that we 
are, in fact, able to meet the individual needs of these 
families and students without concern 6 months from now that 
something is going to happen where an ``i'' wasn't dotted or a 
``t'' wasn't crossed. So again, I am going to keep pushing the 
word ``flexibility,'' because that is what I am hearing from my 
members that is really important.
    Again, passage of the HEROES Act. And it is also important 
that people both here and listening to us know that when the 
news media goes away and when the next national story hits the 
press that those people are still going to be there and they 
are still going to need our help, and I think it is important 
that we all make clear to those folks that we are here for the 
long haul, both everyone around this table and the Federal 
Government, State Government, etc.
    And again, my members, and I am sure I speak for the rest 
of my colleagues in the student loan business, that we are all 
here to try to serve those students.
    Unfortunately, a lot of what we do deals with regulations 
and rules and requirements and technicalities and we want to 
make sure that we are not bogged down by those, that we don't 
stand on ceremony on some of these issues, and again, we 
provide that flexibility to extend deferment periods, extend 
forbearance periods, make sure that we are not creating a 
situation where a student does get their life back on track and 
they are in a worse financial condition than they were when 
they went in because of things like capitalizing interest and 
things.
    So my main goal here is to express the need for that 
flexibility and offer our services and that of my colleagues to 
do whatever we need to do to help you, whether it is crafting 
legislation, working with the Department, working with this 
committee and the committees in the House to make sure that we 
are able to serve those students. Thank you.
    The Chairman. Thank you very much.
    Mark Shriver of Save the Children for a rural aspect?

    STATEMENT OF MARK SHRIVER, VICE-PRESIDENT AND MANAGING 
   DIRECTOR, U.S. PROGRAMS, SAVE THE CHILDREN, WASHINGTON, DC

    Mr. Shriver. Thank you very much, Senator Enzi, and thank 
you to the members of the committee for hosting us this 
afternoon and this morning.
    You have heard from a number of different folks with a 
number of different perspectives, from higher education to 
school superintendents that are dramatically affected by the 
results of this hurricane. I come to you as a representative of 
Save the Children, an entity that has specialized in disaster 
relief internationally, that was created here in the United 
States as a result of the Depression, that actually started in 
Kentucky and now is in 12 States across this country and 40 
counties across the world. We have been in the business of 
disaster relief for over 30 years, from the work that we did in 
the former Yugoslavia in the 1990s to Darfur to our work in the 
tsunami at the end of this year and well into this year, as 
well as for the future.
    What we really believe is necessary--we heard exactly what 
happens day in and day out and some of the issues that the 
schools are facing, but what we are proposing is that any 
relief effort focus in on the needs of kids. Senator Kennedy 
mentioned, and I know, Senator Enzi, your interest in early 
childhood education, particularly young kids are often 
forgotten. Preschool children are often forgotten in 
emergencies.
    So what we would emphasize or ask the committee to consider 
strongly are three areas. One is the effect from a psycho-
social perspective. Mental health services, as Senator Kennedy 
said in his opening statement, are very important, but what 
Save the Children has found in the disaster relief that we have 
done over the last 30-plus years is that roughly only 5 percent 
of the children will have mental health issues, but all the 
children will need to get back into a routine that is 
consistent as quickly as possible with what they had 
beforehand.
    In the psycho-social effort that we have done in places 
like Indonesia as a result of the tsunami are involving the 
entire class. It is not pulling a kid out and stigmatizing that 
child for mental health services. Clearly, those services are 
needed, but what we are talking about is setting up psycho-
social supports in the school system to help the entire grade, 
to help the entire school. It can be part of the curriculum and 
it can focus on social skills.
    The second piece of what we are espousing and really 
advocating is the fact that kids need safe spaces as quickly as 
possible. I saw on the TV last night kids in the convention 
center here in Washington throwing a football around. Kids need 
to be kids, and what we need to do is to set up spaces, safe 
spaces, after-school programs, child care centers, and fully 
fund them to provide a structured routine that kids can get 
back into the normal lifestyle as quickly as possible.
    As I mentioned, there are so many issues that need to be 
addressed, but I just want to again emphasize the fact that 
young kids, 0 to 5, are often left out. After kids start 
school, the kids that are not in the school, the preschool kids 
that are so important to making sure that they receive the 
social and emotional supports necessary to enter kindergarten 
ready to learn are often forgotten in disasters.
    So those are the areas that we would hope that the 
committee would look at. Clearly, you need and hear about the 
necessary need for flexibility, but it is also very important, 
Senator Enzi, that we look at the additional resources that are 
necessary for children, for young children, in particular, the 
0 to 5, and make sure that their social and emotional needs are 
addressed during the work that is going to happen over the next 
few months and over the next few years.
    [The prepared statement of Mark Shriver follows:]

                 Prepared Statement of Mark K. Shriver

    Mr. Chairman and members of the Senate HELP Committee, thank you 
very much for the opportunity to speak with you today, and for your 
leadership in bringing us together to discuss the needs facing our 
fellow citizens displaced by Hurricane Katrina.
    Save the Children began serving children in the United States in 
1932 in response to the Great Depression. That was the last time 
Americans saw so many people displaced because of a natural disaster 
when drought forced several hundred thousand people out of the Great 
Plains which had become ``the Dust Bowl.''
    Today, Save the Children is recognized as a leading independent 
child-assistance agency creating real and lasting change for children 
in need in 12 States and in more than 40 developing countries. Save the 
Children is a global leader in child-focused emergency response and has 
been designing innovative community-based psychosocial support programs 
in crisis-affected countries for over 20 years, including most recently 
in response to the tsunami crisis in Asia.
    Hurricane Katrina is one of the worst natural disasters in U.S. 
history. We know that there are critical needs for those displaced by 
Hurricane Katrina that still must be met: clean water, food, shelter, 
medicine and clothing. Children are among the most vulnerable in this 
situation, and their needs are often overlooked or misunderstood. As 
families are settled in new communities and children enrolled in 
schools, we know there will be an urgent challenge to provide support 
to the tens of thousands of children who have experienced the horrors 
of the disaster and are now without their homes, neighborhoods, 
routines, schools and in some cases families.
    Save the Children has been in touch with State officials in 
Louisiana, Mississippi and Texas and yesterday a small team left to 
assess the situation on the ground in Baton Rouge, Louisiana and one 
will be heading to Jackson, Mississippi early next week. While we will 
continue to refine our response based on these ongoing discussions and 
assessments, Save the Children, based on years of experience dealing 
with the needs of children caught in manmade conflicts and natural 
disasters, has identified 3 needs for children impacted by Hurricane 
Katrina: psychosocial support, safe spaces for children, especially 
those of pre-school age, and structured out-of-school time activities 
for children in grades K-8.

Psychosocial Support Through Schools

    Once basic needs are met, it will be paramount to prevent the onset 
of psychological disorder, anti-social behavior and school-related 
learning problems that often affected children and adolescents in the 
aftermath of traumatic events, especially when their psychological 
needs are left unattended. Traditional mental health clinics and 
counseling approaches are not sufficient. Community mental health 
approaches are required if large numbers of children are to be reached 
in a timely manner in order to:

    <bullet> Reduce the risk of depression, antisocial and other 
dysfunctional behaviors.
    <bullet> Reestablish a sense of security and self-esteem.
    <bullet> Facilitate resiliency and a return to normalcy.
    <bullet> Use schools and other natural learning environments to 
decentralize mental health services.
    <bullet> Screen for high-risk children and youth.

    An immediate and short-term response to a sudden event can mitigate 
the impact of exposure and the potential onset of mood and anxiety 
disorders. Survivors--including children--of stressful events have the 
strength to express what has happened to them, when given the proper 
tools, a supportive environment and structured activities. For 
children, these can be dance, music, drawing, cooperative games, and 
other activities that enable them to explore basic emotions such as 
fear, loss, sadness, joy and courage while at the same time having fun 
with classmates and friends.
    Entire classrooms, rather than individual ``victims,'' are selected 
for participation. Teachers (or school counselors) are trained to lead 
these highly structured activities.
    By implementing a structured activities program as a part of a 
school's curriculum, not only can large numbers of children in need be 
reached quickly, but the potential stigma of receiving mental health 
support also is reduced.
    Evaluations of the impact of Save the Children's program on 
children in crisis after a devastating earthquake in Turkey, conflicts 
in Nepal and the West Bank and Gaza and the tsunami in Indonesia found 
significant improvements in their attitudes and behavior, including:

    <bullet> Fewer traumatic stress symptoms, such as nightmares, bed-
wetting and emotional numbing.
    <bullet> Improved concentration.
    <bullet> Improved academic performance.
    <bullet> Improved school attendance.
    <bullet> Elimination of withdrawn and antisocial behavior.
    <bullet> Improved relations between teachers and students.
    <bullet> Improved relations between students in the group.
    <bullet> Increased self-esteem and sense of stability.

    Save the Children recommends that Congress provides funding for 
schools serving displaced children for:
    (1) Implementation of child-focused mental health strategies and 
psychosocial support programs for children and youth affected by 
Hurricane Katrina.
    (2) Training and technical assistance related to psychological 
recovery and healing for children and adolescents and implementing 
psychosocial programs in schools and classrooms.

Safe Spaces for Children/Pre-school Programming

    During the acute phase of a crisis, such as Hurricane Katrina, 
children are vulnerable due to separation from their families, 
displacement from their homes, the shock of their experiences and 
disruption of routines, especially schools, recreation centers, sports 
teams and clubs.
    Moreover, these children are often left unattended as parents or 
caregivers, if they are not separated from them, seek life-saving 
support and attempt to rebuild their lives. From Save the Children's 
global experience with children in crisis, we have learned that 
communities know how to protect their children best, and they 
frequently prioritize the rapid establishment of safe places to play 
and learn for children while educational and recreational facilities 
are being rebuilt or restored.
    One of Save the Children's innovations in crisis situations is the 
rapid, cost-efficient establishing of safe places for children to play, 
learn and recover their sense of routine and normalcy. Safe spaces have 
been provided for young children from such previous crises in the 
former Yugoslavia in the 1990s through the crisis in south Asia for the 
surviving tsunami children and displaced children in Darfur, Sudan.
    During the acute emergency of Hurricane Katrina, ``Safe Spaces'' 
should cover all ages of children. This could be done in shifts or 
simultaneously depending upon the community and children. During the 
acute phase, staff/volunteers would be briefed on child safety, trained 
in the organization of basic activities, psychosocial support for 
children, and systems of referral in regard to issues such as family 
separation and health.
    From our experience, ``Safe Spaces'' normalize children's lives by 
providing regular structured activities, including recreational, 
educational and psychosocial activities. However, ``Safe Spaces'' also 
fill another void in child-focused emergency response: The needs of 
pre-school aged children are rarely served in emergencies. As primary 
and secondary school students return to school, Save the Children 
recommends transitioning ``Safe Spaces'' to serve the needs of pre-
school children.
    Early Childhood Development activities are important for both the 
child as well as the caregiver. Traumatized parents are often unable to 
provide sufficient care for younger children and the continuation of 
``Safe Spaces'' would address this. Additionally, from experience, 
caregivers will need some form of daycare as they re-establish their 
lives. For Save the Children, daycare in such situations should be more 
than just child play but address their psychosocial needs, to prepare 
them for schooling and living in post-crisis environment.
    Save the Children recommends that Congress:
    (1) Makes a priority the rapid creation of ``Safe Spaces'' in 
temporary shelters and the training of ``Safe Space'' staff/volunteers 
to address the needs of the children and allows the use of funds under 
grants given for the support of temporary and long-term shelters.
    (2) Provides additional funding for training and technical 
assistance for Early Head Start and Head Start Centers serving 
displaced children and children affected by Hurricane Katrina to 
address the children's psychosocial needs.
    (3) Provides funding to communities as they rebuild and re-
establish needed services for children, such as daycare facilities, 
youth centers and gyms, through the provision of materials and 
training.

Structured Out-of-School-Time Programs for Children in Grades K-8

    Save the Children provides after-school programs for children 
living in some of the most remote rural regions of the United States--
including several in the Mississippi River Delta region, not far from 
the worst of Hurricane Katrina's devastation. As a result of Hurricane 
Katrina, large numbers of school-age children have been uprooted and 
displaced. Many are homeless and will have less time in school and 
fewer opportunities for quality structured academic and recreational 
activities. Some will remain in temporary housing for many months, and 
even those who are able to attend schools in Texas, Tennessee and other 
States will require special support because of the disaster they have 
survived and the unfamiliar locations in which they find themselves.
    The families and schools to whom these children have turned also 
will need training and support in order to provide the extra academic, 
recreational and nurturing opportunities that these children will need 
to help to bring normalcy back into their lives and restore their 
emotional well-being and sense of security. We are already hearing that 
many districts will be overcrowded and have to adopt a ``split 
session'' for the school day. Children will be left with substantial 
idle time on their hands before and after school. Filling that time 
with academic and recreational activities that support their school 
achievement as well as emotional recovery is a critical need.
    Children who participate in after school programs demonstrate 
better school attendance, more positive attitude towards school work, 
better interpersonal skills, reduced dropout rates, less time spent in 
unhealthy behaviors, and improved grades. All of these results in and 
of themselves are positive, but put in the context of the hurricane 
victims take on the added benefit of helping restore a sense of routine 
and stability.
    Save the Children recommends that Congress provides:
    (1) Additional funding to create more 21st Century Community 
Learning Centers in communities serving large numbers of children 
displaced by Hurricane Katrina.
    (2) Provide training and technical assistance in psychosocial 
support to 21st Century Community Learning Centers and other entities 
supporting the educational and recreational needs of displaced 
children.

Conclusion

    Save the Children stands ready to make its experts and experience 
in child-focused community mental health strategies, available to 
Federal, State and local authorities to advise on both an overall 
approach to psychological recovery and healing for children and 
adolescents, and on implementing psychosocial, ``Safe Space,'' pre-
school and out-of-school time programs for children displaced by 
Hurricane Katrina.
    The urgent needs of children victimized by Hurricane Katrina must 
remain at the forefront of our Nation's response to this unprecedented 
natural disaster. We know from experience that the minds and hearts of 
children are very resilient, but they must be attended to quickly. A 
return to normalcy and routine with activities designed to help them 
deal with their trauma will help enormously. It will take years to 
rebuild damaged homes, businesses and infrastructure. We won't have to 
wait that long to see results in making our children whole again if we 
act swiftly and give them the right support.

    The Chairman. Thank you.
    That is a good transition into health, and we have by way 
of videoconference Dr. Jennifer Leaning.

  STATEMENT OF JENNIFER LEANING, PROFESSOR OF THE PRACTICE OF 
INTERNATIONAL HEALTH, HARVARD SCHOOL OF PUBLIC HEALTH, BOSTON, 
                         MASSACHUSETTS

    Dr. Leaning. [by videoconference.] Thank you, Mr. Chairman, 
and thank you both for organizing this roundtable and bringing 
together so many thoughtful and dedicated people, many clearly 
deeply affected by the local catastrophe.
    I am speaking from Boston, from Harvard, clearly not in the 
epicenter. I study and teach about disasters and have been 
involved in disaster response for 25 years and also I am very 
connected with the response of the American Red Cross and a 
number of other NGOs and organizations that are now working in 
the area. I also am on the staff of Brigham and Women's 
Hospital, which is one of the bigger hospitals in the Boston 
area and one of the Harvard teaching hospitals and I am very 
well aware of the work that we are doing to support the local 
medical and public health professionals who are working in the 
affected region.
    I have some comments that are related to the short-term and 
the long-term. In the category of short-term, based on my 
understanding of how disasters are planned for and responded 
to, I think there is the need for Congress to make sure that 
what we now have in place in Louisiana and Mississippi in 
particular is an effective procurement joint operations center 
that links local, State, and Federal Government authorities and 
capacities, that has good lateral integration between the civil 
and the military assets, and that that joint operations center, 
which I know is beginning to evolve now in both States, be 
given full authority to make things happen, to cut through all 
the red tape, and to deploy resources and money to the various 
groups, agencies, communities, and individuals who are doing so 
much extraordinary work in the affected area.
    As you have heard from some of the distinguished people who 
have already spoken, there is enormous commitment and 
initiative at the local level. What is happening now in these 
early days of the response is probably through an enormous 
amount of good will and an enormous amount of struggle to try 
to make things happen quickly that should have been planned for 
prior to this.
    There is now still such confusion and such organizational 
overlap that it is very difficult to get things done at the 
sites where they must happen, and what is now essential to 
understand is there is the need to separate out some of the 
things that have to be addressed later and some of the things 
that can't wait, and I think what we are hearing from the local 
actors is that this very precious part of our country must be 
attended to so that local people feel that they have a chance 
to rebuild and return as quickly as possible.
    The second major point that I would like to make in the 
short term, that is in addition to making sure there is a 
coherent command and control at the State level that links to 
all the other players, is the Congress to work with the 
administration to get out a message about what is our national 
strategy about resettlement and reintegration for the evacuees 
who have been sent to other places of temporary safety and 
security. There is clearly fear that a large number of these 
people will not return, or may not return. There is uncertainty 
in the receiving communities about what their role should be in 
terms of attaching temporarily, attaching permanently. What are 
the pros and cons of this?
    I think that it is essential that Congress explore this 
quite deeply and carefully and in a nonpartisan way. It is 
going to take time to figure out the national strategy. I am 
talking about a national philosophy and a national message that 
will allow all of us in this country to understand what the 
plan is for the reconstruction and rebuilding of the Gulf Coast 
region.
    I am aware, for instance, that in our State of 
Massachusetts, there are hundreds of well-organized and deeply-
committed volunteers, local and State agencies grouped around 
Otis Air Force Base, and over the last 3 or 4 days, which is 
not a long period of time, but we have taken all of these 
people offline to go to Otis Air Force Base, there has been a 
question of are we getting 2,500 people from the affected area 
or are we not? It is fine that there be this uncertainty in 
these short and early days. Everybody recognizes that. But I 
think over the next couple of weeks, a sense of what our agenda 
is going to be on these issues needs to be crafted, and I can't 
think of a better forum for this or a more appropriate forum 
for this than the series of hearings and Congressional 
discussions that I know are underway.
    The third short-term issue that I think needs to be paid 
attention to is, speaking now from my medical and public health 
background, and here I am including issues of mental health, 
there need to be under this joint operations center a medical 
task force that link medical and public health and mental 
health providers so that there is a sense of coherence about 
the deployment of people to the areas that need medical and 
public health assessment as well as mental health assessment, a 
place where all the volunteers from around the country can find 
an assignment and a place to go and a short- and long-term plan 
developed for the rebuilding and resupply of the medical 
establishment in these areas.
    Many of the sheltered population are elderly. There are a 
lot of children. There is a fairly significant burden of 
current medical conditions and stable--provided there are 
medications delivered and supplied appropriately--stable mental 
health issues. I know this in part because I have been working 
with the American Red Cross, and I know there are some 
officials in the room from the American Red Cross, in helping 
to deploy medical and public health people to assess the 
conditions in the Red Cross shelters.
    The response for sheltering for the community and from the 
communities like the response has been phenomenal, but there 
are important medical and public health and mental health needs 
that need to be identified and then a plan for addressing them, 
and the needs are different in Louisiana and Mississippi and we 
can go into that in more detail at another time.
    The other big point I would like to make is around the 
evacuation of New Orleans. There continue to be, from all 
reports, something on the order of 10,000 or 15,000 people who 
are still there. The issues of the spread of disease through 
the water, I think are present and important, but the argument 
from my perspective for helping people understand why they have 
to leave is that they are not going to be able to live for very 
much longer in an empty city where the focus of the authorities 
is on cleanup and infrastructure rebuilding. There are not 
going to be supplies of food and water and capacity to deliver 
medical care to this remnant population.
    So I think the argument needs to be made more that in the 
long-term, you can't stay here, rather than it is an enormous 
emergency for you to leave right now. That might allow for more 
dialogue, a need not to haul people out of their homes in a way 
that is likely to create some resentment and leave a lasting 
sense of authority acting somewhat too vigorously, although I 
recognize there is a need to bring people out. What I am 
suggesting is that it be done in a slightly more long-term way.
    I also think that it needs to pay attention to the reasons 
why people are holding on there. One of the reasons is many of 
them still have pets, seeing-eye dogs or just family pets. 
There are approximately, at my estimate, at least 50,000 pets 
still left in the New Orleans area. If there were a way of 
linking the persuasion of people to leave with the support and 
evacuation of their pets, it might be easier to get at least 
some of that remnant population to leave voluntarily.
    And then I had a larger longer-term, short-term point to 
make, which is that everyone who is engaged in this immediate 
response needs to be supported through the possibility of 
relief rotations. This country is transfixed by this disaster. 
There are hundreds of thousands of people around the country 
who have good skills who will get the permission to leave their 
jobs and go down to help. I know that the hospitals in the 
Boston area are developing teams that will go down to the major 
hospitals and clinics in the area to provide 5, 6, 10 days of 
relief and offer rotation for the health professionals who have 
worked so valiantly and who are now exhausted. I know that that 
must be the case for all the other providers and people who are 
in the area.
    So if there could be a way of organizing or at least giving 
permission from a Federal message base to say the need to 
relieve and rotate off is one that is paramount right now and 
that issues of licensure and liability and reciprocity will be 
reduced to the absolute minimum so that people can go down and 
provide the help that so many of us around the country would 
like to provide.
    I have two main points to make on the long-term, and I 
appreciate the chance to speak at this point. One is that we 
may need to pay attention to repairing our national capacity to 
get things done. I do think that there is a need to explore 
quite thoroughly why there has been a failure of advance 
planning and a failure to anticipate and build in the process 
to defend that region from a devastating hurricane and a 
devastating flood and breach of the levies. It has been 
anticipated in many disaster scenarios.
    I fear that FEMA has not helped the State and local 
authorities develop robust plans and the resources to carry out 
those plans. This needs to be looked at. It needs to be looked 
at carefully and, I believe, soon. But it will take time and it 
will require Congressional authority and investigative power of 
Congress.
    I also think it is important--this is the second long-term 
point--in everything we do now at the national level and all 
the way down to the community level, it is necessary for our 
Nation to restore its sense of itself, that we are not just a 
rich Nation, but that we are a caring Nation and that these 
issues of misery, class divide, racial disparity that have come 
to the surface now in the wake of this terrible disaster, these 
issues get on the national agenda and stay there.
    This, as some of your distinguished panelists have already 
said, this is an opportunity as well as a major crisis and I 
would hope that we could look again at what it is that makes 
this country great and pay attention to our respect for the 
vulnerable, the dignity that we must restore to the weak, and 
insist upon the fact that some of the things that we saw in 
those first few days in New Orleans and perhaps in Mississippi 
not be allowed to happen again in the future of our Nation. 
Thank you.
    The Chairman. Thank you very much.
    Next, we will hear from Lisa Cox. Lisa?

STATEMENT OF LISA COX, ASSISTANT DIRECTOR FOR FEDERAL AFFAIRS, 
 NATIONAL ASSOCIATION OF COMMUNITY HEALTH CENTERS, WASHINGTON, 
                               DC

    Ms. Cox. Thank you, Mr. Chair and members of the committee. 
We at the National Association of Community Health Centers are 
very thankful for you extending this invitation to us to 
participate here this morning.
    I want to take this opportunity to tell you a little bit 
about what health centers in the Gulf Coast area, and indeed 
around the country, are doing to help medically underserved 
individuals and families cope with Hurricane Katrina.
    I think it is important to note that health centers in the 
Gulf Coast States--Alabama, Mississippi, and Louisiana--but 
health centers all across the country are first responders in 
this case. Health centers are located in areas where the 
hurricane has hit the hardest and we are serving the most 
severely underserved in this tragedy.
    At the very same time, these very health centers in the 
Gulf States are those that have suffered the most damage, and I 
can go through some of that for you. So while we are in the 
path of the storm, definitely, what health centers are striving 
to do and what they have always done is to be a shelter in the 
storm.
    Really briefly, in the Gulf Coast States, we have 
approximately 54 health centers in Mississippi, Alabama, and 
Louisiana that have satellite clinics. They have about 302 
satellite clinics, some of them in schools, in fact, which 
serve approximately three-quarters of a million patients 
annually.
    As we have done our damage assessments over this week, we 
estimate that approximately 100 health center sites have been 
affected in some way. Some of them are underwater in New 
Orleans. Health centers serve approximately 18,000 people in 
about nine sites all over the city. What we have heard is many 
of those sites are underwater or have damage and are not 
obviously open.
    In Mississippi, there are about 10 sites that have received 
damage. In the Gulfport area, in Biloxi, those health centers 
are completely destroyed and those health centers did serve 
about 30,000 people. So it is catastrophic damage that we are 
dealing with.
    Even in Alabama, in the Mobile area, our health centers 
there have received unbelievable damage and will be closed for 
several weeks. Many will be closed for longer, and so that is a 
significant burden and a resource and a health care home that 
is not there now for medically underserved individuals and 
families.
    At the same time, some of the sites in the Gulf Coast area, 
and then in the region, in Tennessee, in Arkansas, in North 
Carolina, are beginning to see obviously vast numbers of 
evacuees. In Tennessee, they are, I think, expecting to see 
about 20,000 evacuees to their area and, in fact, are 
mobilizing to send their mobile vans out to go to the shelters 
and go to the region and treat people.
    In North Carolina, they actually have a physician at the 
health center who went over and helped during the tsunami in 
Sri Lanka who is preparing to go down to the region and provide 
care and actually has contacted physicians from Sri Lanka who 
are coming over to help.
    Health centers all across the country, especially Texas, 
Arkansas, Tennessee, are not only seeing evacuees, but are 
mobiling to actually go down and provide that respite care in 
those areas that are most severely affected. The health center 
family is a very giving family with open arms, and so health 
centers all across the country, even from as far away as 
Alaska, are trying to figure out what they can do, whether it 
is sending supplies, whether it is figuring out how to send 
doctors and other medical professionals to help. Health centers 
in Massachusetts, for example, have teams of providers that are 
ready to go and ready to go down to the area and treat people 
wherever they need to be treated.
    So given that, and as we move forward to talk about 
solutions, we have been thinking and health centers have been 
thinking a lot about this issue, and so I will just mention 
several quick points and several quick ideas where we feel 
Congress in particular and the Federal Government can be 
helpful to try to restore and rebuild and make sure that 
current health center patients and those who are displaced can 
get the health care that they need.
    Congress should make funding available to rebuild, restore, 
and replace health centers that have been severely damaged, and 
we are still, again, providing, or trying to compile a needs 
assessment. But, we estimate right now that cost at being $65 
million. That is for the three Alabama, Mississippi, and 
Louisiana, health centers most severely damaged.
    Existing health centers, as I said earlier, are taking 
displaced patients and displaced individuals and families and 
providing care to them. That, we estimate that we could serve 
as many as 400,000 additional patients in the region, and that 
is going to be a significant cost, as well.
    And then, also, to ensure that new health centers, 
applications that are currently in the pipeline at HRSA that 
were scheduled to be funded on December 1 of this year can come 
online immediately. What that means is 19 new health centers 
are now in line and have been approved to receive funding. If 
we could get those online in that Gulf Coast region, that would 
be wonderful and a way to do that would immediately help.
    Two other quick points. We would love to have Congress help 
health centers receive needed medical supplies. For the past 
week, we have been receiving calls at NAC and, indeed, calls at 
our primary care associations across the country and our health 
centers that they need medical supplies. They need insulin. 
They need hepatitis vaccines. So anything that the Government, 
that Congress can do in that regard would be very much 
appreciated.
    The last thing I will mention is that we feel that there 
needs to be an extension of the Federal tort claims liability 
coverage for health centers. This is medical liability coverage 
that health centers currently receive. We have been working 
with HHS on this issue and they have indicated to us that FTCA 
coverage is only available within a State, which severely 
limits health center personnel who are already all across the 
country, are gearing up to go, it severely limits their ability 
to do that, to go down to the affected region. And so any help 
that Congress and the committee specifically can provide in 
working with HHS to get over that barrier would be very much 
appreciated.
    I am going to stop right there. Thank you very much.
    Senator Kennedy. Mr. Chairman, could I just ask very 
quickly----
    The Chairman. Certainly.
    Senator Kennedy. [continuing.] Do you anticipate a greater 
demand now that health insurance is basically job related? 
Since so many of these jobs are going to be gone, people will 
have lost their health insurance and, therefore, a place which 
has really been the lifeline have been these health centers and 
there will probably be an additional challenge for you, as 
well?
    Ms. Cox. Absolutely. That is an important point to make. 
Health centers serve about 15 million people who are medically 
underserved all across the country yearly. Approximately 6 
million of our patients are underserved, or uninsured, and we 
do expect that to go up as people move, they are displaced, 
they are without their jobs. We expect that number to go up 
markedly.
    The Chairman. Thank you.
    A little bit of a different direction in health, we will 
call on Dr. Paul Anthony of the Pharmaceutical Research and 
Manufacturers Association.

    STATEMENT OF PAUL ANTHONY, M.D., CHIEF MEDICAL OFFICER, 
     PHARMACEUTICAL RESEARCH AND MANUFACTURERS ASSOCIATION

    Dr. Anthony. Chairman Enzi, Senator Kennedy, on behalf of 
PhRMA and our member pharmaceutical companies, thank you for 
inviting me to participate in this important roundtable.
    We are committed to ensuring that the medicines that people 
need get to them quickly and safely.
    The Chairman. Your mike isn't on. Thank you.
    Dr. Anthony. Sorry. Our member pharmaceutical companies are 
committed to ensuring that the people who need their medicines 
get it quickly and safely delivered wherever it is needed in 
the country, either in the disaster area or where the people 
are being evacuated.
    When we talk about medicines, we are talking about things 
like childhood asthma medications, which may not require 
special handling, to refrigerated insulin, which requires very 
careful handling throughout the distribution chain, to 
experimental medicines that may be used in clinical trials for 
rare cancers, and patients who are at Tulane, for example, that 
treatment has been interrupted and we need to make sure that 
those medicines get to them.
    Because of the magnitude and the breadth of this type of 
demand, we have to have a flexible response in terms of how we 
get medicines to people. So we are working with State and 
Federal agencies to make sure that medicines like vaccines, 
where there is a great need to make sure that is carefully 
controlled so that in a response to, let us say, some show on 
CNN, you don't get emergency orders for tens of thousands of 
vaccines for a particular location, only to find that vaccine 
just being stored in a warehouse. So we are working very 
carefully with the State and Federal agencies to make sure that 
that type of medicine is distributed appropriately.
    We are working with the private sector distribution chain 
to make sure that retail pharmacies, like Walgreen's, which is 
here today, and a number of others who have stepped up to make 
sure that medicines are distributed, that our companies are 
backfilling that private distribution chain to make sure that 
they have the inventory levels that we need.
    We are working with the voluntary and relief organizations, 
like the Red Cross and the Salvation Army, who I know are here 
today, to make sure that the shelters that they set up have 
access to the medicines that they need.
    We are doing all of this today. We are going to continue to 
do it. As has been emphasized earlier this morning, we are 
trying not to be part of the red tape, so we are using 
corporate aircraft where that is appropriate to deliver 
medicines to Mississippi. We are working with the Louisiana 
Board of Pharmacy to convert an old Delchamps grocery store 
into a warehouse so we can use their refrigeration facilities 
to store the medicines that require refrigeration.
    We are doing everything we can. We have already donated 
over $45 million worth of medicines and cash to the affected 
groups. But despite all that we are doing, I am still getting 
individual reports literally every 15 minutes of individual 
cases of people who are not getting their medicines and are 
suffering.
    I will give you one that just came across this morning of a 
patient that was evacuated to a VA hospital. It turns out they 
treated the patient. A social worker wants to discharge that 
patient with medication and this particular patient is not a VA 
beneficiary and there is some confusion about whether they are 
eligible and whether they can fill it from that pharmacy.
    We are getting those types of requests with a question of 
can our companies help, and again, I want to assure you that 
our companies are standing by. We are going to help in every 
way we can. We look forward to working with this committee and 
with the country to again ensure that anyone who needs 
medicines gets the medicine they need. Thank you very much.
    The Chairman. Thank you very much.
    Moving on down to a more local level yet, Kenneth Weigand 
with Walgreen's. Your microphone isn't on.

    STATEMENT OF KENNETH WEIGAND, VICE-PRESIDENT FOR HUMAN 
                     RESOURCES, WALGREEN'S

    Mr. Weigand. Thank you, Chairman Enzi, Senator Kennedy, 
committee members, for the opportunity to be here today. I 
guess I am speaking both on behalf of Walgreen's as a medical 
services provider and as an employer.
    Walgreen's is a nationwide retail drugstore chain. We have 
approximately 4,800 stores in 47 States and Puerto Rico. We 
have 74 stores employing approximately 2,200 employees in the 
Gulf area. Several of these locations remain closed either 
because they were severely storm damaged or looted or both, 
resulting in displacement of hundreds of our employees.
    My comments are focused both on restoring pharmacy and 
health care services, providing relief to the region, and also 
taking care of our employees.
    First, with regard to our patients and relief efforts, 
immediately after the hurricane hit, Walgreen's provided the 
region with truckloads of water and essentials. We continue to 
deliver OTC medications and prescription medications. The 
example was given of insulin. We are trying to provide as many 
of those services as we can.
    The key really is getting our stores open so that we can 
provide these services. Several are up and running on 
generators and as the power gets back on, they are switching 
over to local power. Several are being operated by voluntary 
employees who don't work at that particular location but have 
risen to the challenge and have come to work at an alternate 
location.
    We are, because of our size, we are able to provide 
prescription services nationwide. All of our pharmacies are 
linked, so thankfully, our patients can go to really any 
Walgreen's location around the country and get prescription 
services.
    With regard to our employees, thankfully, we have been able 
to welcome many of them back. Our stores serve as a beacon in 
many areas, and when they see the Walgreen logo, they know 
where to go.
    Again, because of our scope, we are able to put people back 
to work at alternate locations. We have established phone banks 
and Web sites to help us both locate missing employees, get 
them reunited either with their home store or with an alternate 
location, and provide them information on assistance and 
benefits.
    To allow people to work at some of these locations, we have 
trucked in RVs. We had to go to Canada to get, I believe, 50 RV 
vehicles and are driving them down as we speak so that our 
people have a place to stay as they are working. We also have a 
network of voluntary housing. Many of our employees have 
stepped up and opened their homes to their fellow employees.
    We are providing monetary assistance to our folks. We have 
a charitable organization--it is called the Walgreen Benefit 
Fund--that was established to provide financial assistance in 
situations of this kind. We are also able to provide emergency 
loans through our credit union to our folks. Thankfully, we 
have been able to continue benefits and provide Employee 
Assistance Plan counseling.
    With regard to what the committee and Congress could do for 
us, things of immediate need, I believe are probably outside 
the purview of Congress. The immediate need is access to our 
stores. As I mentioned, we are trucking supplies in. In several 
instances, our trucks have been stopped at checkpoints and 
challenged because of curfew regulations, what have you, so we 
have had to go through some efforts to get permission for our 
trucks to get in, both to provide services for our employees 
and deliveries.
    Kind of on a related nature is fuel. We can get the trucks 
there, but because of local gas shortages we are worried about 
getting them back out so they can make return trips, and also 
for our employees to get back and forth to work.
    And once they are there, security for our store locations. 
In many areas, it is quite dangerous for both our people to go 
to work and for our customers to get in and out of the store.
    So those are really the immediate needs. Longer term, the 
professor mentioned licensure and reciprocity. As you know, 
pharmacy is a highly-regulated business, so any assistance with 
regard to allowing our stores to serve out-of-state patrons who 
are on some kind of Government assistance would be welcome.
    And really what it comes down to is getting people at a 
comfortable enough level to be able to come back to work. We 
think allowing them to work is the key to getting their lives 
back together, so it is all the basics of supplemental income 
replacement, relocation, resettlement benefits, housing, 
transportation, and family services so our people don't have to 
worry about their families, can get back to work, be 
productive, and also serve the public. Thank you.
    The Chairman. Thank you very much.
    Our committee has a huge jurisdiction and we are running 
out of time here, definitely running out of time.
    Senator Burr. A quick question?
    The Chairman. A quick one.
    Senator Burr. Just a very quick one. We have all heard the 
horror stories of patients who have received care. A physician 
treats without any history of what they were taking and the 
patients not knowing what they were taking. Do medical 
professionals have the ability to contact a Walgreen's store, 
check a patient's records to see what medications they were on?
    Mr. Weigand. Yes, they do. Yes.
    Senator Burr. Thank you.
    Mr. Weigand. Thank you. The committee has huge 
jurisdiction. We have covered health and we have covered 
education. We haven't covered the labor aspect yet. That is the 
next step here, and from Wyoming, we have Charlie Ware who is 
the Chairman of the Workforce Development Council. I would also 
mention that we have Kathy Emmons, who is the Director of the 
Wyoming Department of Workforce Development. So we appreciate 
your being here, too, and any comments that you can share with 
us later.
    Charlie?

    STATEMENT OF CHARLIE WARE, CHAIRMAN, WYOMING WORKFORCE 
              DEVELOPMENT COUNCIL, CASPER, WYOMING

    Mr. Ware. Thank you and Senator Kennedy. I am the private 
sector person who chairs the Workforce Development Council for 
Wyoming. There are 50 of us in the country. I can take a little 
broader look at this because we are not as directly involved as 
everybody here in this situation.
    I would offer two solutions. I will give a couple of 
anecdotes related to that. I asked Kathy to join me so that we 
can make decisions quickly based on this meeting, and also that 
I don't commit to something that I don't have the authority to, 
and Kathy can tell me that.
    The other thing that I want to share that comes to offering 
the solution is on August 24 in Portland, OR, I assumed the 
Vice Chairmanship of all the workforce State boards in the 
country and I was told it is going to be two meetings a year 
and a couple phone calls. Here I am today speaking for Jim 
Hardegree, who is the Workforce Chair in Georgia.
    One thing I would like to offer is that the workforce local 
boards and State boards across the country, especially in the 
23 States that have offered to bring people, we need to be 
coordinated, too, and let somebody know what we can do and what 
we cannot do.
    Before coming here, I talked to--I called Arkansas, I 
called Florida, I called Georgia, and I called Colorado, just 
because I know those people very quickly. They are busy, busy, 
busy, and they answered my calls very quickly. Arkansas's 
people, when I talked to them, they were in an armory taking 
names and Social Security numbers of people. They were at, 
again, that first-tier level, and what we have been talking 
about today right now is the first tier, that immediate relief 
and rescue. We are not at the next stage of placing people and 
training people in the workforce area. Florida's comments was 
they have taken over and assisted in Southern Mississippi on 
workers' compensation claims and training people.
    Florida has a good idea that I think all the workforce 
boards can do, and that is to train and send people back to 
wherever they might want to be. Again, training centers in the 
Louisiana, Mississippi, Alabama areas are gone, also, so there 
is no way to take care of that. People do want to go back and 
rebuild, especially in the heavy trades, all the construction 
trades, to build.
    Colorado has made a decision, and these are just things 
that need to happen as far as having a plan in place, they have 
deferred the actual--the State board has actually deferred to 
their local board in Denver to handle all the mechanics of the 
workforce. They have about 180, 200 people right now in Denver. 
One of the problems they are seeing is they have eight of those 
people who have actually no documentation and they don't know 
where they came from. So the system has to build itself out a 
little bit.
    I, through my Governor's recommendation, started a 
driller's school in Casper because of the 1,000 people a year 
we need to drill gas wells, and we have two people from 
Mississippi in the class next week and how did we get them? 
They called us. We are, quote, ``not in the system,'' but they 
called us and we will definitely take them.
    There is a major consideration that needs to be looked at 
as we look at placing people in the future in other parts of 
the country, in other States. Wyoming and the Northern tier of 
this country is pretty cold in the wintertime and our 
instructor for this class is from Lafayette, LA. He has been in 
Wyoming for 14 months. He has been through that one winter and 
he is very clear that it is not for everybody. And we looked at 
Utah, we looked at Colorado, we looked at Wyoming, we looked at 
Washington State, we looked at the Dakotas, etc. That is a 
factor in dealing with these people that has to be considered.
    What I would suggest as solutions, which I have talked to 
my national staff now that I am in this national Vice Chair 
position, is to get a phone conference call either next Monday 
or Tuesday, inventory what the workforce boards could do in the 
different States, tally that up, and I don't know, Senator 
Enzi, if we give it to you, but that somebody can know what is 
going on, because I feel in many cases it is kind of herky-
jerky.
    Everybody wants to help, as you said, Senator. We have two 
people who want to drive a bus from Casper loaded with food and 
bring people back, and Governor Freudenthal called them and 
said, that is a great idea, but it doesn't fit really in the 
system. We need to be part of that system. So I think that is a 
point. But I will get that done with my national staff and have 
that available, maybe for the Department of Labor.
    The second thing, and I really wasn't even thinking about 
this as I came, but I think it is important--it always has been 
important, but there is more of an urgency, I think, to look at 
passing the Workforce Investment Act reauthorization, and I 
know the two of you have worked very, very hard on that. But 
that whole section of dislocated workers takes on a whole new 
meaning, I think, as we have this national crisis. You know, we 
can get it passed, get it into conference, work out the 
details, and have a vehicle that all the States could operate 
from. Thanks.
    The Chairman. Thank you. While you do your inventory of 
capabilities, we will see if we can get that done.
    Mr. Ware. OK.
    The Chairman. Maurice Emsellem? Mr. Emsellem?

STATEMENT OF MAURICE EMSELLEM, PUBLIC POLICY DIRECTOR, NATIONAL 
              EMPLOYMENT LAW PROJECT, NEW YORK, NY

    Mr. Emsellem. [via telephone.] Yes. Thank you, Mr. 
Chairman, Senator Kennedy, members of the committee for this 
chance to testify, to speak with you today. I am going to try 
to address the basic questions that were posed by the 
committee, what are the most urgent needs facing the families 
and what steps can Congress take to help meet some of these 
needs.
    I wanted to start off just by mentioning that our 
organization, the National Employment Law Project, our main 
offices are actually located in lower Manhattan and we were 
actively involved in the relief effort after September 11. In 
that case, despite the incredible devastation, families still 
had their homes, and probably most importantly, they still had 
their local communities to rely on for help and to find the 
strength to get by, to continue through the crisis.
    In this case, the evacuees have been totally uprooted from 
their community and their jobs for, we really don't know for 
how long a period of time, which means that they are almost 
entirely dependent, or in many cases entirely dependent on what 
help is provided by the Government, by relief agencies, and by 
employers.
    And obviously, as others have mentioned, finding a good job 
means everything to these families, to give their hope back and 
to give their dignity back after this experience.
    So in terms of some of the most urgent needs, what we have 
been focusing on is trying to help the families and groups that 
are servicing these families to get the financial assistance 
that they need at sufficient levels to care for their families, 
and then also to get back on their feet and find a good job.
    Not far down the road, as Mr. Ware mentioned, we also 
believe that job training, access to higher education has to be 
a major priority as families who lost all connection to their 
jobs start settling down and making some very hard choices 
about how and, in many cases, where to move on and what 
occupations will support them and their families in the long 
run after this experience.
    So what are some of the steps that Congress can take to 
help with the families? First, I want to mention, based on what 
we have heard from groups in Texas and other States that are 
working with some of the evacuees, it is important to emphasize 
that the State unemployment agencies in all the States--in 
Louisiana, Mississippi, Alabama, Texas, Georgia--have been 
working very hard to successfully get their telephone claims 
taking processes up and running to process the unemployment 
claims and the disaster unemployment claims, and that is very 
critical.
    In addition, the evacuees, especially in Houston, have been 
given the in-person help that they need, which is very critical 
in a situation like this, to be able to have that in-person 
contact, to get folks in the system and start processing these 
claims. It is just a major effort to start getting the 
information necessary for all those folks to process their 
claims despite major obstacles in the Astrodome and elsewhere--
limited phones, limited access to computers, and all that. So 
the in-person assistance is very important and it is clear that 
that is happening in a lot of places. So that is a very good 
thing.
    In terms of what Congress can do, just to take a quick step 
back, it is important to mention that we are reminded, vividly 
now, that we have lived through, in 4 short years, two major 
disasters. But unfortunately, really, we don't have a Federal 
disaster assistance program that provides cash assistance, 
financial assistance to the unemployed. Instead, as a result of 
major changes in the law in the late 1980s in the disaster 
unemployment assistance law, the disaster program is the State 
unemployment insurance programs. Disaster unemployment 
assistance is only available to those people who don't qualify 
for State unemployment in their State, like the self-employed 
and other categories of workers.
    So in New York, for example, after September 11, just 3,300 
families collected disaster unemployment assistance after 
September 11. That is about $13 million in benefits. Another 
3,300 people were denied disaster unemployment assistance 
because of restrictions in the law. So that $13 million 
compares with about $1.5 billion that was spent by the State to 
pay for UI benefits as a result of 9/11.
    So given the scope of these latest disasters, and Lord 
knows all this can happen again, what is needed, we believe, is 
a quick fix to make Federal disaster unemployment assistance, 
not State unemployment insurance, the main form of assistance 
to those who lost their jobs due to the disaster. So that 
involves a few things.
    That involves, first, providing what we call DUA, disaster 
unemployment assistance benefits, to all those out of work 
because of the disaster, which means removing the requirement 
that folks first go on their State unemployment insurance 
program if they qualify.
    Second, it is necessary, absolutely necessary, to establish 
a minimum Federal disaster unemployment benefit of at least the 
average State unemployment benefit, the average unemployment 
benefit paid in the States, which right now is $270. That 
compares with the average benefit in the hurricane States, 
which ranges from $170 to $194. Those, unfortunately, are 
literally the lowest average benefits in the country. The 
minimum disaster unemployment benefit available to workers in 
those States right now under the Federal regulations is $97 in 
Louisiana, $85 in Mississippi, and $90 in Alabama. So you can 
appreciate that that is not a lot of money for folks to live on 
in this situation.
    And now, you also have on top of that the situation where 
these families are relocating all over the country. We just got 
a call yesterday from service providers in Pennsylvania who are 
receiving 9,000 families, and $90 in unemployment benefits is 
not a whole lot to live off of in Pennsylvania, and so it is 
very important to beef up the minimum benefit.
    Third, it is necessary to increase the numbers of weeks of 
benefits. Right now, the maximum you can collect is 26 weeks, 
which is all that is available right now to regular 
unemployment insurance recipients. Back in 1988, before they 
changed the law, disaster unemployment assistance provided up 
to 52 weeks of benefits. Obviously, most folks are not going to 
have to use all that, but many will.
    Finally, it is necessary to clarify the rules that allow 
those who lost their jobs due to the disaster to collect 
unemployment benefits even if they are not in the disaster 
area, in the specific disaster counties, for example. Right 
now, that is permitted under law, that if you lost your job 
because of, or for reasons related to the disaster--they have 
to be intimately related to the disaster--even if you are not 
in the disaster area, you can collect disaster unemployment 
benefits.
    But there is an additional rule that was adopted after 
September 11 that requires workers to show that their employer 
lost at least 50 percent of the business from a disaster--from 
revenue generated in the area of the disaster, another business 
or contract, something of that sort.
    So we have a situation now where you have a lot of 
surrounding counties, a lot of surrounding States that are 
really feeling the effects of the disaster, and rather than 
being able to put workers on disaster unemployment assistance, 
their State unemployment assistance programs are going to have 
to absorb those costs.
    So just to wrap up, we believe these reforms to the 
disaster unemployment assistance program are good for workers 
and their families because it gives them the relief that they 
need to get by in amounts that exceed regular State benefits 
right now in the individual States. I believe it is good for 
employers because it removes the significant pressure on the 
unemployment system in their States to raise taxes or reduce 
benefits, and we hope it is also good for the Nation, because 
it puts in place a more effective Federal disaster program when 
the next event hits. Thank you.
    The Chairman. Thank you very much.
    Now, we will move to the two organizations that are on the 
ground first and provide a lot of the original care. We will 
begin with Major Marilyn White of the Salvation Army.

STATEMENT OF MAJOR MARILYN WHITE, NATIONAL CONSULTANT ON ADULT 
                   MINISTRIES, SALVATION ARMY

    Major White. Thank you so much, Mr. Chairman, for this 
opportunity, members of the committee, as well as, I would say, 
partners all in this overwhelming job of bringing healing and 
help to people who are suffering.
    Following landfall, the Salvation Army Disaster Services 
responded to the immediate needs of 500,000 Hurricane Katrina 
survivors by providing food, water, and shelter in Florida, 
Alabama, Mississippi, Louisiana, and Texas, not only for the 
hurricane survivors, but for the first responders.
    Within days, the Salvation Army opened up its own 
facilities and camps to address the high demand for sheltering, 
and we will continue to provide emergency feeding and shelter 
as long as it is needed and until recovery plans are initiated. 
We will also provide financial assistance to supplement funding 
from both the Red Cross and FEMA.
    The Salvation Army has implemented a card system that 
provides funds for medication for individuals and for 
additional funds that enable the people themselves to 
personally be involved in making purchases that they feel they 
need.
    Regarding our disaster recovery, while our disaster 
services are focused on emergency response, our social services 
are now evaluating the appropriate role for us to play in a 
national recovery effort. The strength of the Salvation Army 
for the past 100 years has been and remains social services.
    In addition to our role as an emergency responder, we see 
the Salvation Army assisting with the development of 
intermediate housing over the next 2-year period, and we are 
very concerned that there not be a time limit set for any of 
this.
    Our concern is that displaced Americans are provided in 
safe and private environments, away from the public eye and 
segregated by population. Families living with families, the 
homeless, in an environment that addresses their needs. The 
elderly with access to medical care. Comprehensive services 
provided to all.
    The question that you posed to us was, what are your needs 
and how can we respond to them? The Salvation Army believes 
that not only our organization, but other organizations who are 
familiar with working with the special needs population must be 
at the table for designing and crafting the system regarding 
housing. Special consideration needs to be taken as to where 
people are placed, and it is these organizations that are most 
familiar in dealing with this population.
    We would also ask that there always be clear communication 
open between faith-based organizations, who have intensive 
experience in working with this population, as well as with 
FEMA.
    And as we move into the disaster recovery phase, we would 
want to again answer the question, who is my neighbor? Not only 
those individuals who have survived this terrible devastation 
are our neighbor, but the providers are our neighbors. And as 
we think of what has been referred to as compassion fatigue, we 
would like to pledge that we will uphold your hands and ask 
that you uphold our hands as we minister to these people. Thank 
you so much.
    The Chairman. Thank you very much.
    Jan Lane, the Red Cross?

  STATEMENET OF JAN LANE, VICE-PRESIDENT OF PUBLIC POLICY AND 
           STRATEGIC PARTNERSHIPS, AMERICAN RED CROSS

    Ms. Lane. Thank you, Chairman Enzi. We truly appreciate the 
opportunity to be here today and your forbearance as the 
Blackberries have been going off because we have been 
responding as we sit.
    As of this morning, the American Red Cross has housed over 
159,000 survivors in 650 shelters in 17 States. It is the 
largest and most challenging disaster in our 125-year history.
    We have 32,000 trained Red Cross disaster relief workers, 
the vast majority of them volunteers, from all 50 States 
responding to this. The full assets of our organization are 
dedicated to this challenge.
    I want to echo what Major White had to say. This work could 
not be done without the partners in this room, partners that 
would surprise people. You will hear in a minute that 
Walgreen's has just been unbelievable in their support.
    We have never had to deliver so much aid so quickly in such 
challenging circumstances, because as with many of you, your 
organizations, our chapters were inundated. We have worked with 
city officials on evacuation plans for years and knew that our 
chapter had to be relocated outside of the confines of New 
Orleans in order to be able to provide assistance. When we were 
there last Thursday, we were with our chapter executive, who is 
doing heroic work, not knowing the status of her house and 
knowing that at least 95 of her staff, employees, and 
volunteers are homeless, but continue to deliver Red Cross 
services daily, and it is a 24/7 operation for the full 
organization.
    In this instance, many of you are familiar that we do have 
a chapter welfare inquiry system where, no matter when disaster 
strikes, you can, as a loved one anywhere else in the country, 
you can go into your local Red Cross chapter or call and say, I 
need to know about the welfare of a loved one in a disaster 
area and the communications are down, I can't get through, I 
have tried everything. This time, we have had to set up, and I 
want to share this number, a 1-877-LOVED-1S family links 
registry.
    The latest figure that I had last evening was 65,000 names 
were on that registry, and I know you have seen a number of 
other registries popping up. As of this morning, I think we can 
very shortly have the capability technologically-wise to link 
with the other registries that you are seeing online, and we 
are facilitating some of those linkages as we go forward and 
trying to get the technology, simply laptops into shelters.
    Certainly, as you heard earlier, the Astrodome is one 
situation, but the shelters that are open in Hancock and 
Harrison Counties in Mississippi, that is a little bit 
different story, as it is with some of the 90 shelters in 
Louisiana, just trying to keep things going.
    The Chairman. Could you give us that 877 number again?
    Ms. Lane. Thank you, sir. It is 1-877-L-O-V-E-D, the 
numeral ``one,'' S.
    The Chairman. Thank you.
    Ms. Lane. For purposes of the committee and to try to keep 
it brief, we do food, clothing, and shelter, but one of the key 
concerns with such a mass movement of people and in such 
circumstances has been the public health ramifications when 
people are in congregate shelters, and that is why joining us 
today is Dr. Tom Kirsch, who has been on the ground doing a 
first-hand assessment of the public health needs in our 
shelters. I would like to turn to Tom.
    The Chairman. Dr. Kirsch?

  STATEMENT OF TOM KIRSCH, M.D., JOHNS HOPKINS, MEMBER OF THE 
   AMERICAN RED CROSS DISASTER SERVICES AND HEALTH CARE TEAM

    Dr. Kirsch. Thank you, Senator. As I am bringing up the end 
here, I will try to be as brief as possible, but I am speaking 
as someone who has spent a considerable amount of time on the 
ground, both doing direct assessments of shelter and public 
health issues as well as coordinating with national and local 
and State officials, and I think my comments will focus on 
those areas.
    The need to coordinate in the health care aspect, I think, 
was well pointed out by the kind of disconnect that occurred in 
the health agencies. I think that the State emergency operating 
committees did a tremendous job. I think that HHS has to take a 
bit stronger role in working to develop kind of a medical 
emergency coordinating center and a hierarchy where people can 
get together. The Red Cross has now actively dispersed 
physicians to each of the State EOCs to help begin that process 
and has been, I think, instrumental in bringing those groups 
together.
    We are now working today, starting with the Louisiana State 
Department of Public Health, as well as the U.S. Public Health 
Service, to begin a shelter-by-shelter assessment in every one 
of the shelters in Louisiana and we are hoping to move that 
process rapidly over to Texas as well as to Mississippi and 
have representatives on the ground for that.
    So I recommend that HHS pay some focus on that coordinating 
effort and creating a second body.
    The other thing, I am very heartened to see the fact that 
the pharmacy representatives are here because one of the most 
tremendous issues that we saw time and again in the first few 
days following the disaster is the inability of people to 
access their medication. This undoubtedly led to deaths. It has 
undoubtedly caused difficult problems with psychiatric patients 
and other very vulnerable populations.
    And having some type of effort where we can better 
coordinate that--the response from the pharmacy down to 
individual pharmacists who literally emptied their drug stores 
to people has been tremendous, but there really needs to be a 
higher-level coordination to help that occur on a smoother 
basis. It was really ad hoc, and at Red Cross, nurses were 
literally going to the local Walgreen's and saying, look, I 
have got all these guys with high blood pressure and diabetes, 
what can you give me, and the Walgreen's guys were bringing it 
right over.
    So having a more formal process there would make a big 
difference. That is a big issue in the early days following a 
disaster. I think it is being very well addressed now. The 
State of Louisiana has actually created mobile pharmacy units 
which are out visiting shelters and delivering medications.
    The other thing that I think is very important in regard to 
coordinating, whether that is done through the States or 
whether that is done through the Medical Reserve Corps or other 
functions under HHS would be the coordination of local 
volunteers. There are admittedly thousands of doctors around 
the country who are now ready to pour into the States, and yet 
what I found, arriving just a few days after the disaster, was 
that the local physicians, the local universities, the local 
emergency departments had set up mobile teams, had placed 
themselves in individual shelters, and, in fact, in the larger 
shelters, full-blown clinics were working with medical records, 
with pharmacy distribution centers, with some lab capabilities. 
All of that was done on an ad hoc basis. All of that was 
without any hierarchical support and simply relied on the good 
will of the people.
    I think there needs to be some better coordinating effort. 
Red Cross is not in the business of providing actual medical 
care in their shelters, but in this situation, we opened our 
doors and allowed individual physicians, nurses, etc., to do 
that. There needs to be better effort in coordinating that.
    The other issue that comes up time and again and will be an 
ongoing issue is the public health problems. The State public 
health departments were overwhelmed by this disaster and had so 
many functions that they had a difficult time responding to all 
of them simultaneously. I think clear efforts have to be made, 
both not only for natural disasters, but any given terrorist or 
manmade disaster that you can see, to further strengthen the 
State public health departments. There is an urgent need to 
upgrade their services so that they can better provide the 
immunizations, the surveillance of diseases, the outbreak 
investigations, and all of the functions that are so important.
    We in the Red Cross during the interim, when that service 
was not available, made an active attempt to begin those 
processes ourselves in our shelters. It is not our role. 
Luckily, in the last year, the Red Cross has committed to work 
on a public health function. Actually, we have come quite a 
ways, and I think this disaster gave us an example to try some 
of the things out we have been talking about.
    And I think we need to turn back to the vulnerable 
populations I think people have talked about here. You know, 
these horror stories that have come out of Louisiana of 
abandoned elderly found dead. Well, when I was in the field, I 
found that not only were the elderly not abandoned, but the 
nursing homes brought the people out. The staff of the nursing 
homes stayed with them in the shelters. They brought their own 
cooks. They brought their own food. They brought their own 
oxygen. It was a remarkable sight.
    But those vulnerable populations truly have to be better 
integrated into the system. Whether that is providing 
transportation for the poor or whether that is coordinating all 
the nursing homes better into the system, I think that is 
extremely important, that maybe from a local level, but could 
come also from Federal funding.
    I think those are my major comments. I hope they are very 
concrete. All I have to say is that the response that took 
place at all levels, not just at the Red Cross, is stunning, 
and despite the horror stories you have heard on the news, it 
is a wonderful thing.
    The Chairman. Thank you. I appreciate the comments of 
everybody that was here today. I have taken literally dozens of 
suggestions down here of things that we need to do, and that is 
just talking about this one committee, but we do have a lot of 
jurisdiction. You have outlined a lot of work for us to do and 
I really appreciate it.
    Part of our problem is getting a little bit of education 
before we make our decisions, and I have found that a little 
bit of education goes a long way. You have certainly all been a 
help to us today.
    As we can tell from the discussion today, the devastation 
is beyond anything anybody has seen in their lifetime. I hope 
that remains to be the biggest event in our lifetime, as well. 
But there are things that we need to do to get the relief in 
place and to rebuild the families and get the communities back.
    I just can't express enough on behalf of the committee how 
much we appreciate all of the individual effort that has been 
put into this, all of the community effort. There is a spirit 
of helping in the United States, and something like this brings 
out the best of that. I hope we can emphasize that a little bit 
as we get busy on solving the problems that you have.
    We appreciate not only the people that have been impacted, 
but the people that are accepting folks, hopefully on a short-
term basis so that they can get back to where they were before 
and we can get all the people working in this country again. 
That is a real hub of the United States for the economy, but 
the economy is the people.
    Again, I thank you all for your comments. I will remind 
everybody that you may have had some reactions to some of the 
things that were said here. As a result of some of the things 
that were said, you may come up with some additional ideas. I 
hope you will put those on our Web site for us so we can begin 
reviewing those on Monday and get the legislation through as 
fast as possible for suggestions that were made.
    Thank you very much. The roundtable is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                    Prepared Statement Senator Dole

    Mr. Chairman, my heartfelt thoughts and prayers go out to 
our fellow citizens along the Gulf Coast who have forever had 
their lives changed by Hurricane Katrina. The devastation 
wrought by this terrible storm has left hundreds of thousands 
of Americans in need of relief and compassion. I thank the 
committee for convening this roundtable discussion so that we 
can assess how best to help those in need in the days, weeks, 
and months ahead.
    As a former president of the American Red Cross, I am 
keenly aware of the importance of having a reliable system of 
communication in place following a disaster so that vital 
information can reach those in need, as well as those seeking 
to help. As families begin to rebuild their lives they will 
face important questions from how to receive medications and 
collect Social Security checks, to where to send children to 
school and find housing. At the same time, as we have seen 
already, families, businesses, churches, and other 
organizations from across the country are asking how best to 
help those in need. In order for disaster victims to receive 
the care they require, Americans across the country should have 
easy access to organized, up-to-date information regarding the 
best place to find relief and answers.
    In 2000, the Federal Communications Commission assigned 2-
1-1 for exactly this purpose. 2-1-1 was created to serve as a 
referral service for community, volunteer, and health and human 
services information. Today, 138 million Americans, 
approximately 47 percent of the U.S. population, can access 2-
1-1 with call centers operational in 32 States, including my 
own State of North Carolina
    Currently, the United Way is leading the effort to secure 
2-1-1 as a resource for families and individuals in the areas 
affected by Hurricane Katrina, as well as the many other 
States--including North Carolina--that are now providing 
shelter to evacuees from the Gulf region. In Louisiana, 2-1-1 
has emerged as a critical tool in the recovery effort--in fact, 
the State Government has actively promoted 2-1-1 as the number 
to call to receive help, offer assistance, or ask questions 
related to the effects of Hurricane Katrina.
    In my home State of North Carolina the 2-1-1 call centers 
have seen a dramatic increase in call volume over the past 
week. In Charlotte, more than 600 individuals have volunteered 
to house evacuees through 2-1-1 calls, while 1,249 calls in one 
day alone provided assistance with everything from housing and 
money to volunteers.
    As evacuees come to North Carolina, 2-1-1 is providing them 
with information about medical care, employment, education for 
their children, and other local resources. Additionally, 2-1-1 
is tracking local resources that can be mobilized to assist in 
the ongoing relief effort on the Gulf Coast.
    2-1-1 is once again demonstrating itself as a valuable 
service with tremendous benefits for victims in the days 
following a disaster. Unfortunately, many communities have been 
unable to implement a 2-1-1 system in their area due to a lack 
of sustainable funding. In other States, like North Carolina, 
2-1-1 is not available statewide because of the same funding 
issues.
    That is why I believe it is so important that this 
committee act quickly to approve the Calling for 2-1-1 Act, S. 
211. This legislation authorizes Federal funding that would 
help sustain 2-1-1 efforts by augmenting, not replacing, the 
funding currently received from diverse sources including non-
profits, State Governments, foundations, and businesses. This 
legislation is a common-sense measure that has drawn 
significant bipartisan support. In fact, a cost-benefit study 
by the University of Texas found that if 2-1-1 were available 
to every American across the country, the service would save 
citizens $1.1 billion over 10 years.
    Mr. Chairman, as we help those affected by Hurricane 
Katrina recover from this awful tragedy, we must make certain 
that both victims and volunteers receive accurate and timely 
information regarding the relief effort. Through the use of the 
2-1-1 system we are efficiently and effectively communicating 
how to receive essential services and provide care for others. 
In order for 2-1-1 to reach its full potential it is important 
to provide additional funding through the Calling for 2-1-1 
Act.

    [Whereupon, at 12:32 p.m., the committee was adjourned.]


</pre></body></html>
